<html>
<title> - GEOPOLITICAL IMPLICATIONS OF RISING OIL DEPENDENCE AND GLOBAL WARMING</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 GEOPOLITICAL IMPLICATIONS OF RISING OIL DEPENDENCE AND GLOBAL WARMING

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 18, 2007

                               __________

                            Serial No. 110-1


             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
57-964                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3750475877544244435f525b471954585a19">[email&#160;protected]</a>  

                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH,                   CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                     David Moulton, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared statement...........................................     4
Hon. F. James Sensenbrenner, Jr., a Representative in Congress 
  from the State of Wisconsin, opening statement.................     7
Hon. Jay Inslee, a Representative in Congress from the State of 
  Washington, opening statement..................................     8
Hon. John Shadegg, a Representative in Congress from the State of 
  Arizona, opening statement.....................................     9
Hon. John Larson, a Representative in Congress from the State of 
  Connecticut, opening statement.................................    10
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................    10
Hon. Emanuel Cleaver II, a Representative in Congress from the 
  State of Missouri, prepared statement..........................    12
Hon. John Hall, a Representative in Congress from the State of 
  New York, opening statement....................................    13
Hon. Candice Miller, a Representative in Congress from the State 
  of Michigan, opening statement.................................    13
    Prepared statement...........................................    15
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................    18
Hon. John Sullivan, a Representative in Congress from the State 
  of Oklahoma, opening statement.................................    18
Hon. Hilda Solis, a Representative in Congress from the State of 
  California, opening statement..................................    18
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................    19

                               Witnesses

General Gordon R. Sullivan, USA (Ret.), Chairman, Military 
  Advisory Board.................................................    20
    Prepared statement...........................................    22
Richard N. Haass, President, Council on Foreign Relations........    60
    Prepared Statement...........................................    63
    Answers to submitted questions...............................   204
Carl Pope, Executive Director, Sierra Club.......................    69
    Prepared Statement...........................................    71
Vice Admiral Dennis McGinn, USA (Ret.)...........................    81
    Prepared Statement...........................................    83
    Answers to submitted questions...............................   205
R. James Woolsey, Vice President, Booz Allen Hamilton............   100
    Prepared Statement...........................................   102
    Answers to submitted questions...............................   210

                          Submitted Materials

Submitted by Mr. Markey, ``The Power of Green'', Thomas L. 
  Friedman, New York Times, April 15, 2007.......................   179
Submitted by Mr. Walden, California Forests Report from Winter 
  2006, Volume 10 Number 1, Global Climate Change--Forestry Never 
  Looked So Cool.................................................   136
Landmark Vehicle and Fuel Choices Legislation: The DRIVE Act 
  document, April 16, 2007.......................................   121


 GEOPOLITICAL IMPLICATIONS OF RISING OIL DEPENDENCE AND GLOBAL WARMING

                              ----------                              


                       WEDNESDAY, APRIL 18, 2007

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:35 a.m. In Room 
1100, Longworth House Office Building, Hon. Edward J. Markey 
[chairman of the committee] Presiding.
    Present: Representatives Markey, Blumenaur, Inslee, Larson, 
Herseth Sandlin, Cleaver, Hall, McNerny, Sensenbrenner, 
Shadegg, Walden, Sullivan, Blackburn, and Miller.
    Staff present: Ana Unruh-Cohen and Michal Freedhoff.
    The Chairman. The committee will come to order. We thank 
you all for being with us for this, the inaugural hearing of 
the Select Committee on Energy Independence and Global Warming. 
Today's witnesses have been invited because they have spent 
their lives thinking about what must be done to defend our 
planet and how the twin imperatives of defending our 
environment and defending our freedom have begun to merge into 
a single issue.
    This committee has been given an awesome charge, to press 
the institutions of democracy, to change business as usual in 
an overdue effort to respond to the twin challenges of our 
dependence on imported oil and the looming catastrophe of 
global warming. These problems are intertwined, and this 
hearing today is intended to highlight the fact that just as 
the oil security problem has a major global warming dimension, 
climate change has a major global security dimension. If we are 
to address either problem effectively, we must make sure we 
don't make one problem better by making the other one worse.
    It seems clear that our geopolitical and national security 
posture will only grow worse if we do not act forcefully to 
curb our dangerous dependence on imported oil and reduce our 
emissions of global warming pollution. It is a double threat 
like Orthus, the monstrous two-headed hound of Greek mythology, 
with one head facing backwards and the other forwards.
    Our ever-rising oil dependence is directly attributable to 
a backwards-facing energy policy. While looking forward, we can 
see the threat of rising temperatures and the subsequent 
increasing risk of natural and humanitarian disasters. We have 
become all too familiar with the volatility in gasoline prices 
that occurs as a result of domestic or foreign events, be it 
the capture of British sailors by Iran or the devastation 
brought by Hurricane Katrina. Gas prices have jumped up early 
this year, well before the summer driving season, and are now 
over $3 a gallon for regular at many stations, reflecting once 
again the insecurity and, indeed, sheer folly of tethering our 
economic well-being to unstable foreign sources of oil, 
governed by regimes which are in some cases supporters of or 
participants in the war on terror.
    Forty-five percent of the world's oil is located in Iraq, 
Iran and Saudi Arabia. Events in those countries have a 
dramatic impact on oil prices and our national security. In the 
late 1970s the oil embargo, Iranian revolution, and Iran-Iraq 
war sent the price of oil skyrocketing. And today with Osama 
bin Laden urging his followers to attack Saudi Arabian oil, 
with Iraq descending further into chaos and with Iran marching 
further down the path towards developing nuclear weapons, we 
are seeing the very same sort of pain at the pump because of 
the very same sort of global instability.
    In an article in the New York Times magazine this past 
weekend, Thomas Friedman stated that soaring oil prices are 
poisoning the international system by strengthening 
antidemocratic regimes around the globe. It is no coincidence 
that we have 130,000 young men and women in Iraq right now, 
with at least another 25,000 on the way. It is no coincidence 
that we are spending more than $100 billion a year to keep 
those troops there, in addition to the nearly $300 billion we 
spend each year importing all the oil we use in the first 
place. Much of these funds end up in the pockets of Arab 
princes and potentates who then funnel the money to al Qaeda, 
Hezbollah, Hamas and other terrorist groups.
    Our energy policy has compromised our economic freedom, and 
the American people want action because they know that the 
price has become much too high. We know that we cannot simply 
drill our way to energy independence.
    The United States is home to less than 3 percent of the 
world's oil reserves, but it is itself the world's largest 
consumer and importer of oil. Last year oil imports reached 60 
percent, an average of 12.5 million barrels per day, amounting 
to an annual cost of $291 billion to the American people.
    While moving to renewable fuels that has grown in the soil 
of the Midwest rather than removed from the sands of the Middle 
East can help, the single biggest step we can take to curb 
today's oil dependence and remove OPEC's leverage is to raise 
the fuel economy standards of our automotive fleet.
    I have introduced a bill, H.R. 1506, which would require 
the combined car and light truck fleet to achieve 35 miles per 
gallon by 2018, which amounts to an average of 4 percent per 
year improvement, an increase that is mandatory over this first 
10 years by ensuring that fuel economy standards keep pace with 
technological development. By 2022, it would be an increase to 
40 miles per gallon.
    From the most recent scientific evidence, it is clear that 
we must act now as well on the threat of carbon emissions from 
cars and other sources which pose threats to the environment.
    At the beginning of February, the world's top scientists, 
as part of the United Nations Intergovernmental Panel on 
Climate Change, provided a scientific smoking gun that human 
activities were unequivocally responsible for global warming. 
Two weeks ago, their second report told us what happens when 
the climatic bullet hits; the developed world will bear the 
brunt--the developing world, rather, will bear the brunt of the 
collateral damage from our historic global warming emissions, 
but the United States will experience its own self-inflicted 
wounds, including threats to our national security and military 
readiness.
    Today we will hear the first congressional testimony on 
this critical issue. Generals and admirals who have spent a 
lifetime on battlefields are telling us that global warming is 
a major strategic weakness. So today I am introducing the 
Global Climate Change Security Oversight Act which authorizes a 
national intelligence estimate to assess the security 
implications of global warming to the United States and its 
military. The bill, the House companion to the legislation 
already introduced by Senator Durbin and Senator Hagel, will 
provide a crucial planning and risk assessment tool as the 
Congress seeks innovative solutions to global warming. 
Developed to assess the most serious threats to the United 
States, NIEs are the most authoritative intelligence judgments 
concerning national security issues. This legislation will also 
fund research by the Defense Department into the consequences 
for U.S. military operations posed by global warming.
    But U.S. military leaders are not the only ones concerned 
about the security implications of global warming. Yesterday 
the United Nations Security Council held a historic debate on 
energy climate and security. Representatives of 55 countries 
discussed global warming's implications for peace and security 
around the world. Hercules eventually vanquished the two-headed 
Orthus. And as we will hear today, we have the tools, the 
technology, and the know-how to accomplish our own Herculean 
task of overcoming both oil dependence and global warming 
pollution.
    Let me now turn and recognize the Ranking Member of the 
committee, the gentleman from Wisconsin, Mr. Sensenbrenner.
    [The statement of Mr. Markey follows:]
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7964A.001
    
    [GRAPHIC] [TIFF OMITTED] T7964A.002
    
    [GRAPHIC] [TIFF OMITTED] T7964A.003
    
    Mr. Sensenbrenner.  Thank you very much, Mr. Chairman. And 
I want to welcome everyone to this first-ever oversight hearing 
of the House Select Committee on Energy Independence and Global 
Warming. Contrary to some press reports, this is not a new 
issue. As the former Chairman of the House Science Committee, I 
held numerous hearings on this topic. During that time, I heard 
my fair share of extreme predictions, dire forecasts, and 
gloomy outlooks. This committee has no legislative 
jurisdiction. And if we are to find a workable solution to 
climate change problems, I believe we need to be realistic and 
talk about commonsense ideas and commonsense solutions. 
Unfortunately, this debate has not been characterized by common 
sense. It has been characterized by extremism. While this 
extremism hasn't done anything to produce effective solution, 
it has created a lot of hot air, which isn't good for Congress' 
carbon footprint.
    But extremism has produced a lot of fear. Take this story 
from Monday's Washington Post as an example. The headline 
reads, quote, ``Climate Change Scenarios Scare and Motivate 
Kids,'' unquote. In this story one 9-year-old student foresees 
an Earth 20 years from now that will have no oxygen. There is 
no credible scientific evidence to support such a cataclysmic 
fear, but with all the scary news that we all have read on this 
issue, how can you blame children for being afraid?
    I know that this is an area where the science seems to be 
the most skewed, and politicians and pundits aren't doing very 
much to clarify it. While science has taught us many things 
about climate change and greenhouse gas, one area there is no 
scientific consensus, contrary to popular belief, is the 
effects of climate change. Perhaps nowhere is this divergence 
more evident than in some of the claims made by former Vice 
President Al Gore. In his movie he predicts a 20-foot rise in 
sea levels. But what does the U.N. Intergovernmental Panel on 
Climate Change predict? A 23-inch rise in sea levels. And data 
was submitted yesterday to a Science Committee hearing that I 
attended that showed that there has been less than a 3-inch 
rise in sea levels in the 42-year span between 1961 and 2003. 
There is a world of difference between 20 feet, 23 inches, and 
less than 3 inches, and no wonder why the poor child who was 
interviewed by The Washington Post is scared. In fact, many 
scientists have questioned Mr. Gore's doomsday scenarios.
    A recent article in The New York Times chronicled several 
scientists' call to cool the hype. One scientist said Mr. Gore 
was, quote, ``overselling our certainty about knowing the 
future.'' One thing that is certain is that some of the 
solutions proposed by extremists would have devastating effects 
on our economy. Europe has adopted these so-called solutions. 
The results: soaring electricity rates, factories slowing down 
because they are too expensive to power, and jobs moving to 
countries like China that aren't subject to regulations.
    Will Europe's environment benefit from the slowdown of its 
economy? I doubt it. The Republican members of this committee 
care about both the environment and the economy. And 
Republicans on this committee know that we can protect both in 
addressing this problem.
    I will have many questions about why global warming has 
suddenly become an issue of national defense. I do agree that 
as a country we need to reduce our dependence on foreign oil. 
We especially need to reduce our energy dependence on countries 
that do not share our democratic values. New technology, along 
with wind and solar power, can help us reduce that dependence. 
So can nuclear power. If done right, we can implement these new 
power sources and reduce our carbon output and dependence on 
foreign oil without devastating our economy, throwing people 
out of work, and outsourcing jobs to Third World countries.
    These are the types of solutions that my Republican 
colleagues and I will be seeking, and I thank the gentleman for 
the time.
    The Chairman. The gentleman's time has expired.
    Now under the rules, each of the members can make a 3-
minute opening statement. I will reserve their time and add it 
to their 5 minutes to question the witnesses, thereby having 8 
minutes to question the witnesses. It is within the discretion 
of each member.
    The Chair recognizes the gentleman from Oregon, Mr. 
Blumenauer.
    Mr. Blumenauer. Thank you, Mr. Chairman. I appreciate both 
the provocative statements that we have heard. My preference 
would be to get to our witnesses as soon as possible. So I will 
defer.
    The Chairman. The gentleman reserves his time. The 
gentleman from Washington State, Mr. Inslee.
    Mr. Inslee. Yeah, I would like to say a couple things. 
First of all, it may seem unusual to say that we are lucky here 
this morning. But I think we are lucky for two reasons. The 
first reason, I think it will become very apparent to us that 
we are going to have a way to solve both--two horses of the 
Apocalypse by taking the same actions, and we are going to be 
able to unite Americans around a solution to these two problems 
of energy security and global warming. And I think it is 
important to say that because while this has kicked up a lot of 
storm and controversy, ultimately this country is going to be 
united for a solution to these two problems. I consider us 
lucky in that regard.
    And secondly, most importantly, the reason why I consider 
us lucky, I believe it is America's destiny to lead the world 
into the technological solutions to these twin problems. And I 
just want to share an observation about why I think global 
warming has been controversial. It has been surprising to me 
that people who use a microwave oven that depends on quantum 
mechanics, and a cell phone that depends on quantum mechanics, 
have refused to recognize the scientific consensus on global 
warming. And I think their reason is fear.
    My friend, Mr. Sensenbrenner, related fear of some grade-
school children. I think there is a lot of fear in Congress. I 
think there is a lot of fear that we aren't smart enough to 
develop the technologies to deal with this problem. And the 
anecdote to fear is confidence.
    And I just want to note a meeting we had last Friday in 
Seattle, Washington, where we brought together some companies 
that are dealing with the technologies, the American 
technologies to solve this problem. The Ramgen Company has 
developed a way to compress CO<INF>2</INF> that could help us 
have clean coal. The Verdiem Company that has figured out a way 
to save 30 percent of your electricity in your computer system. 
The Imperial Energy Company that is going to build the largest 
biodiesel plant in the Western Hemisphere. The Finavera Company 
has figured out a way to get energy from wavepower. The 
Prometheus Energy Company has figured out a way not to vent 
methane but to develop electricity. The MagnaDrive Company that 
has developed electrical generating motors that can save 30 to 
40 percent of the energy costs associated with them.
    I suggest that this problem and these two problems are the 
largest economic opportunity America has ever had. And America 
does well when there is economic and technological transition, 
and we are going to do well here. And I just hope that when we 
adopt the new Apollo Energy Act, which I will be introducing 
shortly, that we will get Members to support the idea of 
confidence and optimism. That is what we are going to take out 
of these meetings. Thank you.
    The Chairman. The gentleman's time has expired.
    The gentleman from Arizona, Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman, for holding this 
hearing. In recognition that today's hearing is the first of 
this select committee, I want to say that I welcome this debate 
on climate change and hope that this committee, along with 
other committees in the House, will investigate the matter, 
weighing the science as well as the costs and benefits of 
various policy options.
    I agree that the United States should consider the risk of 
climate change as a potential national security concern. 
However, I also believe that extreme poverty in developing 
nations is also a potential national security concern, and 
limiting human freedom around the world is a potential national 
security concern, and policies that damage the world's economy 
are potential national security concerns. Indeed there are 
countless potential national security concerns, many of them 
related to our need for energy. Worst-case scenarios should be 
considered and assessed, but that does not mean they should be 
the cornerstones of U.S. policy. There are many tools at our 
disposal, including adaptation that can be effective in 
addressing the potential impacts of a warming climate.
    President Klaus of the Czech Republic, in writing to the 
Energy and Commerce Committee several weeks ago, expressed his 
view that while discussing climate, we are not witnessing so 
much a clash of views about the environment but a clash of 
views about human freedom. Regarding developing nations he 
wrote: They will not be able to cope with the limits and 
standards imposed on the world by irrational environmental 
policies. Their products will have difficult access to the 
developed markets. And as a result, the gap between the 
developing nations and the developed world will widen.
    President Klaus' language should give us a sense of how 
difficult it will be to get these nations to join us in a quest 
to reduce carbon, and of the importance of pursuing energy 
alternatives that will not limit or damage the economies of 
developing nations or the world's economy. These developing 
nations are faced with a moral question. Do they restrain the 
growth of their energy supply demand in their economies 
considering that hundreds of millions of their citizens live in 
dire poverty?
    We have heard testimony in the Energy and Commerce 
Committee that over 300 million Indians live on less than $1 
per day; 700 million live on less than $2 per day. Facing this 
economic reality, can we expect policymakers in India or China 
or other developed nations to limit their nation's economic 
growth? Or must we help these nations grow their economies and 
raise standards of living through alternative energy sources 
and efficiency gains so that environmental and adaptation 
concerns are manageable problems rather than global crises?
    History has shown that countries that can afford to care 
about the environment do. Put another way, as former Indian 
Prime Minister Indira Gandhi once said, the ultimate polluter 
is poverty.
    These are difficult questions, Mr. Chairman, and I thank 
you for holding this hearing that will hopefully help us begin 
to resolve them. I yield back.
    The Chairman. Okay. Thank you. The gentleman's time has 
expired.
    The Chair recognizes the gentleman from Connecticut, Mr. 
Larson.
    Mr. Larson. Thank you, Mr. Chairman. And let me commend you 
and also the leadership of Speaker Pelosi for having the vision 
to understand the need to get both sides of the aisle to come 
together and coalesce around the vitality of ideas that can 
deal with this very important issue.
    I am looking forward to the testimony of our panelists, and 
I truly believe that we are in a race between catastrophe and 
cooperation. And I think to the extent that this committee can 
come together and have a robust exchange of ideas and not end 
up being central casting for Inherit the Wind, part 2, I think 
we will be able to move forward in a manner in which the Nation 
will be well served.
    And I yield back.
    The Chairman. The gentleman's time has expired.
    The gentleman from Oregon, Mr. Walden.
    Mr. Walden. Thank you very much, Mr. Chairman. I appreciate 
the opportunity to hear from our witnesses today. And I spent 
most of the April break touring around my district, meeting 
with people who are developing alternative energy, a lot of 
which was prompted by passage and enactment of the 2005 Energy 
Policy Act for America which is spurring development of wind 
energy. I toured a 100-megawatt wind energy facility out of 
North Power, Oregon, out of Union that is set to go online. I 
toured a 40-million-gallon-a-year ethanol plant that should 
open this July at the Port of Morrow in Boardman, Oregon. I met 
with the pollen grain growers and talked about their ability to 
produce biodiesel fuels.
    And I am a big advocate of renewable energy, but I grow 
somewhat perplexed at those who say we have become so reliant 
on foreign oil--and I, frankly, agree with them, and that is a 
bad thing for our Nation's security and economy at times. But 
then also they are doing everything they can to stop us from 
developing our own resources available here in the United 
States, whether that is oil or natural gas.
    I spent a lot of time in this Congress over the last few 
years chairing the Subcommittee on Forests and Forest Health. I 
worked closely with my colleague from South Dakota, 
Representative Herseth, on legislation to try to clean up her 
forests. One forest in Oregon that burned in 2003, the B&B 
fire, in a matter of a couple weeks put twice as much carbon 
into the atmosphere in Oregon and other greenhouse gases as the 
entire State of Oregon emits in a year combined. In a year.
    And yet there are those who are advocating for us to do 
everything we can to address this issue of global warming and 
climate change, and I think there are a lot of things we can 
do, and I am actually excited about some of the opportunities. 
But there are also the very people who don't want us to do 
anything to manage our forests.
    And yet overseas, we read in The Washington Post, the 
illegal logging that is going on is eliminating the forests in 
China and Indonesia and other Asian countries, so we can import 
that wood here at a time when we have forests that are 
overstocked, overgrown, subject to catastrophic fire and 
emitting enormous amounts of loads of carbon and other 
greenhouse gases into the atmosphere, and we refuse to do 
anything about it.
    So I think there are opportunities here to improve 
management of our Federal forestlands, to encourage and incent 
development of renewable and low-polluting new sources of 
energy, to encourage conservation efforts and more 
efficiencies.
    And I look forward to our hearings and the testimony from 
our witnesses. And thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    The gentlelady from South Dakota, Ms. Herseth.
    Ms. Herseth. Thank you, Mr. Chairman. I will reserve my 
time so that we can get to the testimony. And as a matter of 
personal privilege, a couple colleagues and I will have to go 
to a short markup in the Veterans' Affairs Committee, but we 
will return promptly to hear the testimony of our distinguished 
panelists today. Thank you.
    The Chairman. The gentlelady's time is reserved. The 
gentleman from Missouri, Mr. Cleaver.
    Mr. Cleaver. I reserve my time also, Mr. Chairman. Thank 
you.
    [The statement of Mr. Cleaver follows:]

    [GRAPHIC] [TIFF OMITTED] T7964A.029
    
    The Chairman. The gentleman from New York, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman, Mr. Ranking Member and 
distinguished panel. I am proud to be named to this committee. 
I am eager for the committee to get to work. The subject matter 
for our first hearing could not be more appropriate.
    Our dependence on foreign oil and our changing environment 
constitute nothing less than significant threats to our 
national security that must be met with swift aggressive 
action. Reliance on imported fossil fuels already sends 
hundreds of billions of dollars overseas each year, damages our 
economy with energy prices that burden family budgets and 
creates public health risks by spewing pollution into the 
environment. Left unchecked, our growing dependence on foreign 
sources of energy will leave our Nation increasingly vulnerable 
to the whims of OPEC and the upheaval in the world's most 
unstable regions.
    At the same time, the widespread impacts of climate change 
will enhance the threat of severe weather disasters and create 
global instability.
    Meeting our national security threats posed by the 
dependence on foreign oil and climate change will require a 
concerted national effort. For too long, too little has been 
done by our national leadership to mobilize the American people 
to meet this challenge. Finding the solutions necessary will 
require commitment and difficult choices, but I believe that 
just as the Nation pulled together to support the war effort 
through World War II, just as we rose to meet the challenge 
that President Kennedy gave us of going to the Moon in 10 
years--which we actually accomplished in 9--we can unite now to 
do what is necessary to combat climate change and energy 
insecurity. And, at the same time, those same actions will help 
to reduce asthma and emphysema, especially among our children 
in our inner cities, and to reduce acid rain and to reduce oil 
spills and to reduce mercury contamination and to reduce our--
to balance the trade deficit and to reduce our difficulties in 
securing oil in parts of the world where they are unstable or 
unfriendly regimes.
    And maybe most importantly, if and when we win this 
particular battle, we meet this particular challenge, I believe 
it will give us as a Nation a psychological boost, not just an 
economic boost, because I believe a lot of these jobs will be 
created in the new industries we are talking about here, and 
that is certainly my hope, but it will give us an emotional 
boost that this country sorely needs.
    So I am excited to be here and look forward to your 
testimony. And thank you, Mr. Chairman. I yield back.
    The Chairman. The gentleman's time has expired.
    The gentlelady from Michigan, Mrs. Miller.
    Mrs. Miller. Thank you very much, Mr. Chairman. I am 
delighted to be a member of this committee. I think both of our 
leaderships on both sides have done an outstanding job of 
picking a very diverse group of our colleagues here, and I look 
forward to working on an issue that has no partisan barriers, 
of course, and that is advocating for our environment and being 
environmentally sensitive.
    And as I understand the purpose of the committee, it really 
is to seek government policy solutions to the problem of global 
climate change. And so I think it is entirely appropriate that 
our first hearing be about the geopolitical implications of oil 
dependence and climate change, because I truly believe that 
energy security and energy independence equals national 
security. And I also sit on the House Armed Services Committee, 
so I really believe this very much.
    And, of course, as the President has said and as has been 
said here today, we are a Nation addicted to oil. And just like 
drug abusers, we buy the product that we are addicted to from 
some very unsavory characters from across the globe. We buy 
energy from nations like Venezuela and Hugo Chavez, who is 
openly hostile to America. We buy energy from some of the 
Middle East where funds are sometimes siphoned off to support 
those who hate America. And let's face it, many of these 
countries would be much less interesting if we did not need 
that oil.
    There has to be a better way, and do I believe that there 
is. In fact, I represent a district in southeast Michigan which 
is home, as you might all know, to the domestic auto industry, 
which is under a microscope for environmental sensitivity. And 
wouldn't it be better for America if we produced automobiles 
that got not only higher fuel economy, but ran on much 
different types of fuel than oil-based gasoline, fuels like 
ethanol or biodiesel or hydrogen? That day is coming and it is 
coming if we stand up and give our domestic auto industry a 
helping hand instead of hitting it with a hammer.
    Wouldn't it be better for America if we could produce 
automobiles that we could plug in to charge in a battery in our 
garage and never have to use the gas engine on a short trip? 
That day is coming if we share the vision with our incredible 
scientists.
    In fact, Mr. Chairman, let me take this opportunity to 
formally ask the committee to consider having a field hearing 
in Detroit, in southeast Michigan, at the home of the domestic 
auto industry where we can actually see all of these exciting 
new technologies and how they are being utilized in the future.
    This technology is coming. The only question is whether or 
not America will lead the way, as we have throughout the 
Industrial Revolution. The geopolitical implications of energy 
independence are clear. In America, where we are not forced to 
fund our enemies but instead support the betterment of our own 
society, that should be the primary focus of our energy policy, 
one that supports American enterprise and ingenuity that drives 
our economy forward. And I think if this goal is accomplished, 
America and the world will be a much better place.
    Thank you, Mr. Chairman. I will reserve the balance of any 
remaining time that I may have. Thank you.
    The Chairman. Great.
    [The statement of Mrs. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T7964A.030
    
    [GRAPHIC] [TIFF OMITTED] T7964A.031
    
    [GRAPHIC] [TIFF OMITTED] T7964A.032
    
    The Chairman. And the Chair recognizes the gentleman from 
California, Mr. McNerney.
    Mr.  McNerney. Thank you, Mr. Chairman. Today we have a 
rare opportunity to unite our great Nation to develop a 
national mandate to educate and mobilize our country with a 
great national purpose, much like Sputnik mobilized the prior 
generation.
    This committee can be the focus for that change and 
mobilization, and I look forward to participating in that 
transformation. I reserve the balance of my time.
    The Chairman. And the Chair recognizes the gentleman from 
Oklahoma, Mr. Sullivan.
    Mr. Sullivan of Oklahoma. Thank you, Mr. Chairman. And 
thank you for holding this historic first hearing of the Select 
Committee on Energy Independence and Global Warming. I look 
forward to hearing from our witnesses on the geopolitical 
implications of rising oil dependence and global warming. It is 
an honor to be at the epicenter of the debate on climate 
change.
    Protecting the environment is neither a Democrat nor a 
Republican issue but a bipartisan issue that all Americans 
should discuss and address. Our country has become too 
dependent on foreign energy resources, especially oil that is 
produced in a volatile part of the world. I believe the answer 
to this problem comes from increased U.S. energy independence. 
We can achieve this by expanding our domestic refining capacity 
and expanding our domestic energy production both on and 
offshore.
    It is also important that we look at alternative fuels as a 
viable option for Americans' energy needs. I welcome the debate 
on this issue and commit to this process with an open mind. I 
believe we can work together to find workable solutions, 
commonsense regulations, and address the issue of climate 
change without destroying the American economy or losing 
American jobs.
    Thank you, Mr. Chairman, and I yield back the remainder of 
my time.
    The Chairman.  The gentleman's time has expired.
    The gentlelady from California, Ms. Solis.
    Ms. Solis.  Thank you, Mr. Chairman. And I also want to 
commend you and Speaker Pelosi for allowing me the opportunity 
to serve on this very prestigious select committee, and knowing 
that this is our first hearing how important it is to hear from 
our witnesses, so I want to thank them for also being here this 
morning.
    Two months ago I spoke at the Helsinki Commission, on 
behalf of the United States delegation, to address energy 
security and climate change. Parliamentarians from across 
Europe agreed that we must address the issue of security and 
climate change together. Many oil-producing countries lack the 
political will or social framework for good governance in the 
energy sector. Producing countries such as Iran and Russia may 
use energy reserves to attain political objectives and increase 
political influence. In the United States, as we know, we are 
home to less than 3 percent of the world's reserves and more 
than 60 percent of the oil consumed in the U.S. is imported, 
costing our Nation more than $290 billion annually.
    The dependency on oil makes us subject to the international 
risks associated with unpredictable and unstable nations. The 
report titled ``National Security and the Threat of Climate 
Change'' underscored the connection between security, energy 
use and climate change, and clearly outlined the risks of 
inaction. It concluded that climate change is a threat 
multiplier for instability in some of the most volatile regions 
in the world, resulting in already weak and failing governments 
being pushed toward authoritarianism and radical ideologies.
    Globally, food security, transport industry, and human 
health will be impacted, all issues at the root of instability 
and conflict. Failure to take action may result in the United 
States being drawn more frequently into conflict situations.
    And yesterday the Secretary General of the United Nations 
stated and, I quote, ``Compared to the cost of conflict and its 
consequences, the cost of prevention is far lower in financial 
terms, but, most importantly, in human lives and life 
quality.'' and I agree with this.
    The risks associated with inaction are far too great. The 
impacts of global warming, such as heat waves, would 
disproportionately affect low-income and underrepresented 
communities here in the United States. And just this week 
Latino, religious, African American leaders highlighted the 
risks of inaction to the health of vulnerable communities and 
populations.
    Military advisors have also highlighted the risks in terms 
of national security. The development of domestic policies that 
reduce oil consumption and emissions are critical to increasing 
options for protecting our interests abroad and here at home. 
Simply put, we need aggressive action to curtail our thirst for 
energy.
    I look forward to discussing these policy issues with you, 
and thank the witnesses for being here. Thank you.
    The Chairman.  The gentlelady's time has expired.
    The gentlelady from Tennessee, Mrs. Blackburn.
    Mrs. Blackburn.  Thank you, Mr. Chairman. I appreciate the 
opportunity to serve on the committee and I am looking forward 
to a healthy and judicious debate over the issue of climate 
change.
    As we look at the causes of climate change, I think it is 
imperative that we look at the whole problem, but we must not 
base our decisions on half truths, inconclusive science or 
media hype. The discussion must be based on testimony on 
science, not on political party or special interest agenda 
items.
    And I want to welcome our guests, and we look forward to 
your testimony that you will share with us.
    We all should be aware that the U.S. currently has several 
existing threats to its national security, such as 
proliferation of weapons of mass destruction and transnational 
terrorism. A question we should ask is, does climate change 
rise to the level of this immediate danger? Another question 
that we should ask, we should ask if it would be unwise for us 
to devote significant time and resources to speculative 
dangers; should we instead focus on the current dangers to our 
national security? It is possible if these are not addressed 
that the global warming issue would be a moot issue.
    I do agree that competition for oil resources in the 
future, especially for the U.S., is going to increase and U.S. 
domestic policies need to address our current and future 
dependence on oil imports, because we are vulnerable to supply 
interruptions and price increases and because much of this 
revenue is going to countries that are not friendly to the 
United States. We must diversify our resources of oil, and we 
can because we have vast reserves of oil and gas on land and in 
the sea that are currently not being tapped.
    We also have trillions of barrels of oil in shale and coal 
on public lands that can be converted to transportation fuel 
and serve our needs for a couple hundred years. And this could 
be accomplished with little disruption to our natural 
environment. Even if the Earth continues to warm and does not 
revert to a cooling cycle and possibly cause events that 
threaten national security, the predicted outcomes are at best 
tentative and the proposed solutions raise problems of their 
own.
    I look forward to discussing how we should proceed and how 
we should appropriately use our resources as we look for energy 
innovation and security. Thank you, Mr. Chairman. I yield back.
    The Chairman.  Great. The gentlelady's time has expired.
    We now turn to our exceptionally influential committee 
which has been assembled here this morning. We will begin with 
General Gordon Sullivan who is a former chief of staff of the 
United States Army. He has spent his life serving his country, 
with four tours of duty in Europe, two in Vietnam, and one in 
Korea, and was chief of staff to Secretary of Defense Dick 
Cheney in the administration of George Herbert Walker Bush. He 
joins us today on the heels of the release of a major report 
entitled ``National Security and the Threat of Climate Change'' 
which he compiled for the Center of Naval Analysis with 11 
distinguished military leaders.
    Thank you for all of your service, General Sullivan. 
Whenever you feel comfortable, please begin.

STATEMENT OF GENERAL GORDON R. SULLIVAN, USA (RET.), CHAIRMAN, 
                    MILITARY ADVISORY BOARD

    General Sullivan.  Thanks, Mr. Chairman. It is an honor to 
be here today with you and your colleagues. As you stated, 
today I am here as the Chairman of the Military Advisory Board 
to the Center for Naval Analysis Corporation and their report 
on national security and the threat of climate change.
    The advisory board consisted of three- and four-star flag 
officers of the Army, Navy, Air Force and Marine Corps. Our 
charge was to learn as much as we could in a relatively short 
time about the emerging phenomenon of global climate change, 
using our experience as military leaders to process our 
learning through a national security lens. In other words, we 
were asked what are the national security implications of 
climate change.
    When I was asked to be on the Military Advisory Board, I 
was both pleased and skeptical. Pleased because of one simple 
and straightforward fact; that is that I am almost 70 years 
old. I have served my country for over 50 years. I took my oath 
as a cadet at Norwich University in Vermont in 1955, retired in 
1995, and I am now the president and chief operating officer of 
the Association of the United States Army. So I have been in or 
around the defense establishment since 1955. Here I am in the 
later stages of my life, and I feel sometimes as if some of the 
sacrifices I, my soldiers, colleagues, friends and family made 
for America are now being overtaken by a much more powerful and 
significant challenge to their health and well-being and the 
health and well-being of my three grandchildren and their 
children and the future.
    Having said this, I must admit I came to the advisory board 
as a skeptic. There is lots of conflicting information on the 
subject of climate change, and like most public policy issues 
debated here and discussed in America, there are many opinions. 
It is what makes America great. It is what I served for, for 
over 50 years.
    After listening to the leaders of scientific business and 
governmental communities, both I and my colleagues came to 
agree; and we published our report with our agreement that 
global climate change is and will be a significant threat to 
our national security, and, in a larger sense, to the lives of 
our grandchildren and their children.
    The findings of the Military Advisory Board are as follows:
    Projected climate change poses a serious threat to 
America's national security. Climate change acts as a threat 
multiplier for instability in some of the most volatile regions 
of the world. Projected climate change will add to tensions 
even in stable regions of the world. And climate change, 
national security, and energy dependence are a related set of 
global challenges.
    Our recommendations are as follows:
    First, the national security consequences of climate change 
should be fully integrated into national security and national 
defense strategies. The United States should commit to stronger 
national and international roles to help stabilize climate 
changes at levels that will avoid significant disruption to 
global security and stability. The United States should commit 
to global partnerships that help less developed nations build 
the capacity and resiliency to better manage climate impacts.
    The Department of Defense should enhance its operational 
capabilities by accelerating the adoption of improved business 
processes and innovative technologies that result in improved 
U.S. combat power through energy efficiency.
    And last, the DOD, the government, should conduct an 
assessment of the impact on U.S. military installations 
worldwide of such events as rising sea levels, extreme weather 
events and possible climate change impacts over the next 30, 
40, 100 years.
    Climate change, national security, and energy dependence 
are interrelated. Simply hoping that these relationships will 
remain static is simply not acceptable. Hope is not a method. 
We can't sit here and wait to find out.
    Speaking for the members of the Military Advisory Board, I 
am confident in stating we as individuals collectively support 
your legislative initiative to authorize an NIE, National 
Intelligence Estimate, on national security implications of 
climate change.
    Mr. Chairman, I request my statement and the report, which 
I have here, be entered into the official record.
    The Chairman.  Without objection, it will be entered into 
the official record.
    General Sullivan.  Thank you, sir.
    The Chairman.  I thank you, General Sullivan.
    [The statement of General Sullivan follows:]

    [GRAPHIC] [TIFF OMITTED] T7964A.033
    
    [GRAPHIC] [TIFF OMITTED] T7964A.034
    
    [GRAPHIC] [TIFF OMITTED] T7964A.035
    
    [GRAPHIC] [TIFF OMITTED] T7964A.125
    
    [GRAPHIC] [TIFF OMITTED] T7964A.126
    
    [GRAPHIC] [TIFF OMITTED] T7964A.127
    
    [GRAPHIC] [TIFF OMITTED] T7964A.128
    
    [GRAPHIC] [TIFF OMITTED] T7964A.129
    
    [GRAPHIC] [TIFF OMITTED] T7964A.130
    
    [GRAPHIC] [TIFF OMITTED] T7964A.131
    
    [GRAPHIC] [TIFF OMITTED] T7964A.132
    
    [GRAPHIC] [TIFF OMITTED] T7964A.133
    
    [GRAPHIC] [TIFF OMITTED] T7964A.134
    
    [GRAPHIC] [TIFF OMITTED] T7964A.135
    
    [GRAPHIC] [TIFF OMITTED] T7964A.136
    
    [GRAPHIC] [TIFF OMITTED] T7964A.137
    
    [GRAPHIC] [TIFF OMITTED] T7964A.138
    
    [GRAPHIC] [TIFF OMITTED] T7964A.139
    
    [GRAPHIC] [TIFF OMITTED] T7964A.140
    
    [GRAPHIC] [TIFF OMITTED] T7964A.141
    
    [GRAPHIC] [TIFF OMITTED] T7964A.142
    
    [GRAPHIC] [TIFF OMITTED] T7964A.143
    
    [GRAPHIC] [TIFF OMITTED] T7964A.144
    
    [GRAPHIC] [TIFF OMITTED] T7964A.145
    
    [GRAPHIC] [TIFF OMITTED] T7964A.146
    
    [GRAPHIC] [TIFF OMITTED] T7964A.147
    
    [GRAPHIC] [TIFF OMITTED] T7964A.148
    
    [GRAPHIC] [TIFF OMITTED] T7964A.149
    
    [GRAPHIC] [TIFF OMITTED] T7964A.150
    
    [GRAPHIC] [TIFF OMITTED] T7964A.151
    
    [GRAPHIC] [TIFF OMITTED] T7964A.152
    
    [GRAPHIC] [TIFF OMITTED] T7964A.153
    
    [GRAPHIC] [TIFF OMITTED] T7964A.154
    
    [GRAPHIC] [TIFF OMITTED] T7964A.155
    
    [GRAPHIC] [TIFF OMITTED] T7964A.156
    
    [GRAPHIC] [TIFF OMITTED] T7964A.157
    
    [GRAPHIC] [TIFF OMITTED] T7964A.158
    
    [GRAPHIC] [TIFF OMITTED] T7964A.159
    
    The Chairman.  Our second witness, Dr. Richard Haass, is a 
Rhodes scholar who has received the Presidential Citizens Medal 
for his contributions to implementing U.S. policy during 
operations Desert Shield and Desert Storm, served on the 
National Security Council under George Bush senior, headed the 
policy planning at the Department of State under Secretary of 
State Colin Powell, and is now head of the Council on Foreign 
Relations. His latest book is entitled ``The Opportunity: 
America's Moment To Alter History's Course,'' which could well 
serve as the title for this hearing.
    Dr. Haass, welcome.

 STATEMENT OF RICHARD N. HAASS, PRESIDENT, COUNCIL ON FOREIGN 
                           RELATIONS

    Mr. Haass.  Thank you, Mr. Chairman. And for the record, if 
you do choose to use the title of my book as the title of your 
hearing, I would pose no objection.
    Thank you very much for asking me to testify today on this 
critical issue. Let me just note that I will be speaking here--
the views I will be saying here will be my personal views and 
not those of the Council on Foreign Relations, simply because 
the Council on Foreign Relations does not take institutional 
positions. I will just make a few points and I ask that my full 
statement be inserted in the record.
    America's high dependence on imported oil adversely affects 
our national security in a number of ways. First, it distorts 
American foreign policy by increasing the importance of the 
greater Middle East considerably above what it would be either 
if it did not have much oil or if oil played a less important 
role than it does.
    Secondly, our dependence on imported oil increases the 
vulnerability of the U.S. economy to supply interruptions and 
price increases.
    Thirdly, our current dependence on imported oil exacerbates 
our current account deficit.
    And fourthly, as several of you have correctly pointed out, 
our importing of large amounts of oil funnels massive amounts 
of dollars to producers, many of whom, such as Iran and 
Venezuela, are carrying out foreign policies inimical to 
America's principles and interests, and in other cases this 
massive flow of resources can actually undermine markets, 
undermine the rule of law, and undermine democracy.
    This current state of affairs is a national failure. I 
would go so far to say it is a national scandal that we find 
ourselves in this position more than three decades after the 
first oil shocks. Alas, there are no quick fixes nor is there 
any benefit to be had from further delay.
    Is climate change a national security matter? Here I would 
associate myself with the report and remarks of my good friend, 
Gordon Sullivan. Climate change is a cause of both conflict and 
it is a cause of state failure, which in turn can breed 
terrorism, drug trafficking, slavery and other adverse aspects 
of globalization.
    There is much to do. There is a large number of potential 
remedies. I would just say some of them include diversification 
of oil supplies, maintaining strategic petroleum reserves in 
this country and elsewhere, and instituting new sharing 
arrangements that bring in India and China; increasing the 
resilience of the energy infrastructure and system; increasing 
the domestic production of oil; development of alternatives to 
oil, especially to reduce the use of it in the transportation 
sector in this country; the development of new technologies 
that lead to the clean burning of coal or at least the cleaner 
burning of coal, as well as technologies that would lead to the 
capture and sequestration of carbon, if possible, expanding the 
role of nuclear power, at a minimum, to replace retired nuclear 
plants down the road; and to reduce the demand, especially 
again in the transportation sector, and to increase efficiency 
of energy use more broadly; to develop an international 
framework for the world; to take the place of Kyoto essentially 
for the post-2012 world; to encourage forestation and 
discourage deforestation; and to change the way the United 
States Government deals with these issues.
    Let me just use the remainder of my time to make six 
overarching points, and I will do it as quickly as I can.
    First, the United States needs to adopt a broader 
definition of energy security. The traditional definition, 
which essentially has emphasized reliable access to affordable 
supplies of oil, is simply too narrow and inadequate. It fails 
to take into account the need to stem the flows of resources to 
certain governments, it fails to take into account global 
climate change. What we need is a new definition for energy 
security. Any energy security is and will be a function of our 
ability to manage the amount of energy produced, consumed, and 
imported so that the United States, one, reduces its 
vulnerability to supply and price fluctuations; and, two, 
reduces the flows of resources overseas; and, three, reduces 
the adverse impact on the global climate.
    Secondly, we need a truly comprehensive policy. We cannot 
drill or conserve our way out of the current state of affairs. 
Neither nuclear power nor cellulosic nor anything else will by 
itself constitute a panacea.
    Thirdly, the United States cannot do this alone. We need an 
American policy. We must walk the walk if we are going to 
persuade others when we talk the talk. But the approach must be 
international. Developing and developed countries must 
participate.
    Fourthly, there will be no solution to the energy security 
and global climate challenges for the foreseeable future. The 
calls for energy independence are unrealistic or even 
unhelpful. The challenge is to manage this problem, not to 
eliminate it.
    Fifth, the United States Government needs to change the way 
it goes about business in this area. The National Security 
Council, for example, needs an energy security and climate 
change directorate. We should look at the role and mandate of 
the Department of Energy, and, more generally, we should look 
at ways in which we can better integrate the concerns before 
this select committee and the broader concerns of national 
security.
    Last, we also need to meet the challenge of integration 
beyond the U.S. Government. And we need to find ways to 
integrate not simply the executive branch and the congressional 
branch on this issue, but also what the Federal branch does 
with State and local authorities, with the private sector and 
with NGOs.
    So let me end where I began. I applaud the creation of this 
select committee. I applaud your willingness to devote your 
time and energies to this, and I wish you well in your work 
because, to a large extent, the national security of this 
country in coming decades will depend on how well and how 
successfully we meet these related challenges of energy 
security and climate change. Thank you.
    The Chairman.  Thank you, Dr. Haass, very much.
    [The statement of Mr. Haass follows:]

    [GRAPHIC] [TIFF OMITTED] T7964A.036
    
    [GRAPHIC] [TIFF OMITTED] T7964A.037
    
    [GRAPHIC] [TIFF OMITTED] T7964A.038
    
    [GRAPHIC] [TIFF OMITTED] T7964A.039
    
    [GRAPHIC] [TIFF OMITTED] T7964A.040
    
    [GRAPHIC] [TIFF OMITTED] T7964A.041
    
    The Chairman.  Our next witness, Carl Pope, is one of 
America's most influential and effective environmental leaders. 
He was appointed executive director of the Sierra Club, 
America's oldest and largest grassroots environmental 
organization in 1992. He is a veteran leader in the 
environmental movement. Mr. Pope has been with the Sierra Club 
for the past 20 years. He graduated summa cum laude from 
Harvard and spent 2 years as a volunteer in the Peace Corps in 
India. Welcome, Mr. Pope. Whenever you feel ready, please 
begin.

    STATEMENT OF CARL POPE, EXECUTIVE DIRECTOR, SIERRA CLUB

    Mr. Pope.  Thank you very much, Mr. Chairman, members of 
the committee. I am Carl Pope, the executive director of the 
Sierra Club, and it is an honor to appear before you today. The 
Sierra Club believes that this select committee can be the 
pivot which moves America's national government from lagger to 
leader on the issue of climate change.
    Today we are addressing the national security implications 
of oil dependence and climate change. Lincoln said in the Civil 
War that slavery somehow caused it. I think we all know that 
dependence on oil somehow is related to our war in Iraq.
    While oil addiction is the closest nexus between national 
security and global warming, global warming itself is a bigger 
threat than oil addiction alone, because climate change can 
produce insecurity in regions of the world which have no oil. 
Indeed, climate change has historically been one of the world's 
major sources of violence and instability.
    For 1,700 years the drying out of the Asian steppe lands 
sent Ghengis Khan, Atilla the Hun, and wave after wave of 
nomadic invaders to topple Rome, unseat Chinese imperial 
dynasties, and finally topple the Arab caliphate with the 
sacking of Baghdad.
    But today we have the solutions to solve both our addiction 
to oil and the threat of global warming. Indeed, replacing our 
reliance on oil and other fossil fuels will create a new energy 
economy, relieve us of dependence on unstable parts of the 
world, and reduce the threat of global warming pollution.
    In January the Sierra Club released a report in cooperation 
with the American Solar Energy Society in which we capped the 
expertise of America's leading government scientists and 
researchers on energy who found that simply by exploiting 
existing energy efficiency and renewable technologies, we could 
reduce our emissions of carbon dioxide by 2 percent a year, 
every year between now and 2030, and be on the pathway with new 
technologies emerging from those national laboratories to 
complete the task of reducing our national emissions of global 
warming by 60 to 80 percent by 2050. In the Sierra Club, we 
called that the 2 percent solution.
    We are asking the American people and the Congress to 
embrace that solution. It has four principle pathways and one 
blind alley. The first pathway, get more efficiency out of the 
cars and trucks that we make, whether we make them in southeast 
Michigan or in Tennessee. We can save consumers money, reduce 
oil dependence, revitalize the American auto industry by 
improving fuel efficiency by 4 percent a year as the President 
has called for. Taking this step alone, by 2025 would save over 
3 million barrels of oil, more than we import from the Persian 
Gulf. For this reason the Sierra Club supports the Markey-Platt 
CAFE legislation.
    We also urge Congress to support the development of 
cellulosic ethanol and other renewable fuels. Ethanol and 
renewable fuels and auto efficiency multiply their impact. We 
need to do both of these things. We can't solve our 
transportation fuels problem with only one of the two 
solutions.
    Next, in the utility sector we need to embrace the 
renewable energy possibilities so many of you mentioned. The 
State of Minnesota, where I was this weekend, has already 
adopted a very ambitious renewable energy standard, one that 
would achieve 30 percent renewable standards by 2025 for its 
largest utility. Congress should join that by adopting a 20 
percent national standard by 2025.
    We also need to recognize that we waste an enormous amount 
of the electricity that we generate. We should adopt an 
national energy efficiency standard that would put the Nation's 
electric sector on a dependable track towards greater 
efficiency. Utilities can and should become at least 10 percent 
more efficient by 2020.
    The blind alley which has been suggested recently by the 
President is the idea that we can back out oil from--gas from 
oil with gasoline made from coal. If you look at the numbers, 
it is overwhelmingly likely that such a strategy would actually 
double the amount of carbon dioxide put out by the average 
vehicle and would also cost the taxpayers enormous sums of 
money for very little return. So we urge the Congress not to 
follow the seemingly attractive but, if you look closely at the 
numbers, ultimately unworkable strategy of using coal liquids.
    What we should be doing instead is sequestering the carbon 
dioxide from electricity generated from coal and then using 
that electricity to plug--to plug in the hybrids that 
Congresswoman Miller suggested. That is a pathway to use coal 
responsibly to back out oil imports.
    We can do this job, the American people are ready to do 
this job, and I want to underscore what many of you said, we 
must do this job in a responsible way and in a way which not 
only doesn't hurt the American economy. I think that is far too 
low a standard. I believe that this Congress has the 
opportunity, by designing effective energy policies which 
unleash American ingenuity and entrepreneurship, to actually 
create a new industrial revolution in this country, to add 
millions of new industrial jobs which we badly need to reduce 
our trade deficit, and to enable us to say to our children when 
they ask us, mommy or daddy, what did you do in the great 
warming, to respond with pride: We led.
    Thank you very much.
    The Chairman.  Thank you, Mr. Pope.
    [The statement of Mr. Pope follows:]

    [GRAPHIC] [TIFF OMITTED] T7964A.042
    
    [GRAPHIC] [TIFF OMITTED] T7964A.043
    
    [GRAPHIC] [TIFF OMITTED] T7964A.044
    
    [GRAPHIC] [TIFF OMITTED] T7964A.045
    
    [GRAPHIC] [TIFF OMITTED] T7964A.046
    
    [GRAPHIC] [TIFF OMITTED] T7964A.047
    
    [GRAPHIC] [TIFF OMITTED] T7964A.048
    
    [GRAPHIC] [TIFF OMITTED] T7964A.049
    
    [GRAPHIC] [TIFF OMITTED] T7964A.050
    
    [GRAPHIC] [TIFF OMITTED] T7964A.051
    
    The Chairman.  Next we are going to hear from Vice Admiral 
Dennis McGinn who served in the United States Navy for 35 
years, where he commanded aviation squadrons in the Coral Sea, 
the aircraft carrier USS Ranger in the Western Pacific and the 
Indian Ocean, and rose to become commander of the U.S. Third 
Fleet in the Pacific.
    In 2000 Admiral McGinn became the Pentagon's first deputy 
chief of Naval Operations, Warfare Requirements and Programs. 
Upon retirement he joined Battelle as Vice President for 
Strategic Planning. Welcome, Admiral. Whenever you are ready, 
please begin.

      STATEMENT OF VICE ADMIRAL DENNIS McGINN, USN, (RET)

    Admiral McGinn.  Thank you, Mr. Chairman, Mr. 
Sensenbrenner, members of the committee. It is an honor for me 
to appear along with my fellow witnesses at this inaugural 
hearing of this very, very important panel. I believe that our 
dependence on oil in general and, in particular, imported oil 
from unstable areas of the world does in fact constitute a 
national security threat and one that is growing every day.
    Our Nation uses 25 percent of the world oil supply on an 
annual basis. We have, a best estimate, about 3 percent of the 
oil reserves in the world. If we were to make a sudden 
discovery of a new oil reserve tomorrow and doubled that 
reserve to 6 percent, we wouldn't be much better off.
    So when we start looking for solutions that try to get us 
other sources of oil from domestic sources, we have got to 
recognize that it is only a very, very marginal improvement in 
the situation of our dependence on oil.
    If you consider that in October of this year our Nation's 
population passed 300 million, the world's population passed 
6.5 billion, and those numbers are going up. If you multiply 
those numbers by per-capita energy consumption, particularly in 
emerging areas of the world like China and India where they 
have a very understandable expectation of a higher quality of 
life and a higher economic outcome, it is not a sustainable 
situation for us to continue to use oil and hydrocarbon-based 
energy at the rate that we have been during this very 
successful age of oil that has brought us to today.
    Additionally, in addition to our concern from a national 
security perspective on dependence on foreign oil and our 
nonsustainable consumption rate of oil based against reserves, 
the production of the byproducts of oil, greenhouse gases, does 
in fact constitute a national security threat. It is one that 
we are seeing today in certain manifestations and it is one 
that I can guarantee will get greater and greater with each 
passing year. It is only a matter of time.
    Taken in combination, the fact that we have a national 
security threat due to oil dependence and the fact that we have 
a national security threat that exists today and will grow 
inevitably in coming years makes this a very, very great 
challenge for the American people. It is a challenge that has 
been described as one fitting a solution like the Apollo 
Program or the Manhattan Project or the New Deal. I believe 
that there are aspects of all of those programs that could be 
applied to meeting America's energy challenge and environmental 
challenge.
    But I think that we need to get started now and we need to 
do that in a very, very balanced way. There is no silver bullet 
solution. There is not any specific form of renewable energy 
that is going to lead us out of this dependence on oil. There 
is no energy-efficiency technology, taken in and of itself, 
that will suddenly reduce our greenhouse gas production 
nationally and globally.
    It is the right kind of technologies, the right kinds of 
solutions, taken in combination with the right kinds of 
national leadership and policy that will allow us to meet this 
challenge. And it isn't a challenge that I view negatively; it 
is a challenge that I think has tremendous potential for great 
outcomes.
    It isn't zero sum; if we solve our dependency problem, then 
we must lower our economic standard of living. If we suddenly 
reduce our emission of greenhouse gases, we must accept a 
reduction in our quality of life. It is in fact an opportunity, 
a challenge that creates enormous opportunities for our economy 
in producing different forms of energy and renewable, different 
technologies and different procedures for squeezing every bit 
of good economic output out of every unit of electric energy or 
liquid fuel for transportation, and it is a challenge that 
creates the opportunity for true global leadership.
    The United States has been very, very blessed by the age of 
oil. The age of oil is not sustainable. We can lead into the 
next age of clean and abundant energy which will solve enormous 
challenges not just in our own borders but throughout the 
world.
    Mr. Chairman, I would like to submit my written testimony 
for the record and I look forward to your questions.
    The Chairman.  Without objection, it will be included in 
the record. I thank you, Admiral, very much.
    [The statement of Admiral McGinn follows:]

    [GRAPHIC] [TIFF OMITTED] T7964A.052
    
    [GRAPHIC] [TIFF OMITTED] T7964A.053
    
    [GRAPHIC] [TIFF OMITTED] T7964A.054
    
    [GRAPHIC] [TIFF OMITTED] T7964A.055
    
    [GRAPHIC] [TIFF OMITTED] T7964A.056
    
    [GRAPHIC] [TIFF OMITTED] T7964A.057
    
    [GRAPHIC] [TIFF OMITTED] T7964A.058
    
    [GRAPHIC] [TIFF OMITTED] T7964A.059
    
    [GRAPHIC] [TIFF OMITTED] T7964A.060
    
    [GRAPHIC] [TIFF OMITTED] T7964A.061
    
    [GRAPHIC] [TIFF OMITTED] T7964A.062
    
    [GRAPHIC] [TIFF OMITTED] T7964A.063
    
    [GRAPHIC] [TIFF OMITTED] T7964A.064
    
    [GRAPHIC] [TIFF OMITTED] T7964A.065
    
    [GRAPHIC] [TIFF OMITTED] T7964A.066
    
    [GRAPHIC] [TIFF OMITTED] T7964A.067
    
    [GRAPHIC] [TIFF OMITTED] T7964A.068
    
    The Chairman.  Now I turn to our final witness, James 
Woolsey, who was director of the Central Intelligence Agency 
from 1993 to 1995, a Rhodes Scholar. Mr. Woolsey is currently 
the co-chair of the Committee on Present Danger and serves on 
the National Commission on Energy Policy. He is one of 
America's most articulate voices regarding the toxic 
combination of oil and terrorism.
    Thank you for being with us. Mr. Woolsey, please begin.

                 STATEMENT OF R. JAMES WOOLSEY

    Mr. Woolsey. Thank you, Mr. Chairman. It is an honor to be 
asked to be here today. We depend on oil for 97 percent of our 
transportation needs, Mr. Chairman, and oil contributes over 40 
percent of the global warming gas emissions that human beings 
put into the atmosphere from fossil fuels. These numbers are so 
large because the world uses approximately 1,000 barrels of oil 
a second and we use in this country approximately 250 barrels 
per second.
    The key here, I believe, is that what we need in the long 
term is a transportation fuel that is as secure as possible, as 
clean as possible in global warming as well as in other terms, 
and as inexpensive as possible. Today oil meets none of these 
three criteria. It is not just foreign oil, it is oil that 
doesn't meet these criteria.
    Oil is a strategic commodity because we depend upon it so 
much for transportation. In a sense, salt was a strategic 
commodity until a little over a century ago because there was 
no other real way to preserve meat, a major share of people's 
intake. Wars were fought, national strategies were developed 
until the late 19th century having to do with salt. Today salt 
is not a strategic commodity. No nation sways world events 
because it has salt mines.
    I think we have to strive for a similar path of decline, 
indeed destruction of oil as a strategic commodity; not 
destruction of oil itself, of course. Like salt, we will find 
lots of uses for it and will be using it for a long time. But 
it is this dependence for transportation that is the heart of 
our problem.
    Now national security requirements certainly, I think, 
dictate us moving away from oil for a number of the reasons 
that have been mentioned: two-thirds of the world's proven 
reserves being in the Persian Gulf area; al Qaeda attacks in 
Abcaiq can risk oil cutoffs; the royal succession in Saudi 
Arabia is going to be a problem in a few years; Iran's 
President is a part of a circle around Ayatollah Mesbah-Yazdi 
that is radical even by Iranian standards; and now six Sunni 
states have decided they need nuclear programs as well as Iran, 
since many of these states have huge reserves of oil and gas. 
One suspects that those nuclear programs, like Iran's, may not 
be limited to electricity generation.
    We borrow over $300 billion a year, nearly a billion 
dollars every calendar day to import oil, which weakens our 
economy and dollar. And if it does that to us, think what it 
must do for developing countries where debt is the central 
problem for economic development.
    The oil revenues that go to Saudi Arabia and other parts of 
the gulf are used, directly and indirectly, to spread Wahhabi--
the Wahhabi version of Islam around the world. It is 
essentially the same ideology as that of al Qaeda. They and al 
Qaeda disagree only about who should be in charge.
    The fatwas of the Wahhabis are murderous, literally, with 
respect to the Shi'a, to Jews, to homosexuals and apostates, 
and they are horribly repressive with regard to everyone else 
including, particularly, women.
    So as we fund the dissemination of this ideology around the 
world, this is the only war the U.S. has ever fought in which 
we pay for both sides. And as Tom Friedman puts it, the price 
of oil and the path of freedom run in opposite directions. 
There is a good deal of academic learning on this, but one 
needs only to observe Mr. Ahmadinejad, Mr. Chavez, and Mr. 
Putin to see the consequences of that.
    Now, oil in transportation is not going to be particularly 
affected by other steps to reduce carbon emissions by carbon 
cap-and-trade or carbon taxes. That has only a tiny effect on 
oil's use, pennies' worth of effect, say, on the price of 
gasoline. There has to be another approach.
    People can have one set of views, I think quite logically, 
with respect to what you do about carbon going into the 
atmosphere from coal-fired power plants, but another is 
possible with respect to oil's use in transportation.
    I think what is interesting is that the steps we would want 
to take for moving away from oil in transportation for global 
warming reasons are essentially the same ones we want to take 
for purposes of moving away from oil dependence for strategic 
reasons. Indeed, there are a number of steps that can be 
implemented, and let me just say that renewable fuels of a 
number of kinds deserve support.
    Support is also deserved, I believe, for removing barriers 
to alternative fuels, and that has to do with making it 
possible for pumps to be put in at filling stations for 
flexible-fuel vehicles to be produced readily by Detroit and 
other automobile manufacturers, but especially now to move 
towards electricity. Plug-in hybrid gasoline electric vehicles 
are routinely now in their prototypes, dozens in California 
getting well over 100 miles of gallon of liquid fuel because 
one is running on off-peak overnight electricity for 20, 30, 40 
miles before one becomes a regular hybrid vehicle.
    What is often not understood is that because the automobile 
fleet in the United States has 20 times the energy that the 
electricity grid does and is utilized only 10 percent of the 
time, most all cars drive less than 4 hours a day, this creates 
a reserve of ability to fuel automobiles from off-peak 
overnight electricity at very low cost, approaching a penny a 
mile in many circumstances, and it also creates no need for new 
power plants.
    Pacific Northwest Laboratory has said there could be 85 
percent of the cars on the road that can be plug-in hybrids 
before you need any new power plants, so we are not talking 
about building new coal-fired power plants.
    With that, Mr. Chairman, I will stop. I see I have run 
over. Thank you.
    The Chairman.  Thank you, Mr. Woolsey, very much.
    [The statement of Mr. Woolsey follows:]

    [GRAPHIC] [TIFF OMITTED] T7964A.069
    
    [GRAPHIC] [TIFF OMITTED] T7964A.070
    
    [GRAPHIC] [TIFF OMITTED] T7964A.071
    
    [GRAPHIC] [TIFF OMITTED] T7964A.072
    
    [GRAPHIC] [TIFF OMITTED] T7964A.073
    
    [GRAPHIC] [TIFF OMITTED] T7964A.074
    
    [GRAPHIC] [TIFF OMITTED] T7964A.075
    
    [GRAPHIC] [TIFF OMITTED] T7964A.076
    
    [GRAPHIC] [TIFF OMITTED] T7964A.077
    
    [GRAPHIC] [TIFF OMITTED] T7964A.078
    
    [GRAPHIC] [TIFF OMITTED] T7964A.079
    
    [GRAPHIC] [TIFF OMITTED] T7964A.080
    
    [GRAPHIC] [TIFF OMITTED] T7964A.081
    
    [GRAPHIC] [TIFF OMITTED] T7964A.082
    
    [GRAPHIC] [TIFF OMITTED] T7964A.083
    
    [GRAPHIC] [TIFF OMITTED] T7964A.084
    
    [GRAPHIC] [TIFF OMITTED] T7964A.085
    
    [GRAPHIC] [TIFF OMITTED] T7964A.086
    
    [GRAPHIC] [TIFF OMITTED] T7964A.087
    
    [GRAPHIC] [TIFF OMITTED] T7964A.121
    
    [GRAPHIC] [TIFF OMITTED] T7964A.122
    
    [GRAPHIC] [TIFF OMITTED] T7964A.123
    
    [GRAPHIC] [TIFF OMITTED] T7964A.124
    
    The Chairman. That completes the time for statements by our 
panel.
    Now we will turn to the question and answer period. The 
Chair recognizes himself for 5 minutes.
    Yesterday at the United Nations Security Council, the 
British Foreign Secretary, Margaret Beckett, said, I quote her, 
``Climate change is an issue which threatens the peace and the 
security of the whole planet.''
    Would one of you take that and comment upon it? General 
Sullivan.
    General Sullivan. Mr. Chairman, I think what she is 
suggesting is essentially what our conclusions were; that is, 
that in regions of the world like Africa, many parts in Africa, 
climate change, drought; drought causes famine, causes 
governments to fail because they can't provide services for 
their populace, which creates the environment for nonstate 
actors to appear. It is a petri dish for terror and instability 
and obviously creates migration irrespective of borders. 
Nomadic people move to get water and food and so forth and so 
on, and they also move from south to north, from North Africa 
to Europe.
    And I think what she is getting at is what we talk about in 
our report. By the way, in this report we are not just talking 
about oil, petroleum, hydrocarbons, we are talking about 
drought, natural resources, all natural resources. So I see a 
direct link, as do my colleagues. Certainly her comment is well 
taken with regard to our report.
    The Chairman. Do any other of the panelists want to comment 
on that? Mr. Woolsey.
    Mr. Woolsey. Mr. Chairman, I would only add that much of 
the disagreement about the extent of climate change has to do 
with what scientists call positive feedback effects. It is sort 
of an unfortunate term because there is nothing positive about 
these effects.
    They are not modelable so they don't show up in most of the 
model calculations. If the models show the possibility over the 
next several decades of inches of sea level rise and a degree 
or so of centigrade of global warming, a lot of people look at 
what the models say and say well, that looks like it might be 
something we can manage. Even that will have some important 
effects.
    But these feedback effects that are not in the models such 
as, let's say, after 2 degrees increase the tundras start 
melting, the tundra has huge amounts of methane. It is 20 times 
worse as a global warming gas than carbon dioxide.
    So the release of methane in turn creates the release of 
more methane. Those effects are what lead to some of these 
predictions of meters of sea level rise and a number of degrees 
of increase. It is a matter of some uncertainty but there are 
data that suggest some of these things are at risk.
    The Chairman.  Let me ask one final question before my time 
expires. In 1977 the United States imported 47 percent of its 
oil, but we passed a law here and President Ford signed it in 
1975, that actually reduced our dependence back down to 27 
percent fuel economy standards for vehicles by 1986. We have 
had no new laws since then. We have the SUV exception. We are 
now up to 60 percent dependence upon imported oil. It goes up 
year after year, adding 65, 70, 75 percent.
    Could one of you speak to the national security 
implications of that ever-increasing percentage of oil which is 
imported?
    Mr. Pope. Let me respond by saying that actually you speak 
to the national security opportunity of getting back on the 
pathway we undertook in the 1970s. If we can improve the 
efficiency of the average vehicle by 4 percent a year, which in 
engineering terms is well within everybody's capacity, and if 
we simultaneously work seriously at enabling a substantial part 
of the petroleum fraction to be replaced by cellulosic ethanol, 
we will be in a situation in which, as Mr. Woolsey said, oil 
may still be an interesting commodity but it will not drive the 
world and we will have the freedom and flexibility to decide in 
our own national interest how deeply engaged we wish to be in 
places like the Persian Gulf, Venezuela and Nigeria. Right now 
we have no freedom of action.
    The Chairman.  Thank you. My time has expired. The Chair 
recognizes the gentleman from Wisconsin, Mr. Sensenbrenner.
    Mr. Sensenbrenner. Thank you, Mr. Chairman. I think all of 
us in this room agree that oil dependency is bad and it has a 
lot of negative impact on our economy, on our national security 
and the like. So I guess the question is how to reduce the 
dependency on oil.
    I also think it is almost a given that the sign of a 
healthy economy is electricity consumption, which is one of the 
reasons why the Chinese are opening up a new coal-fired power 
plant about once a week, because their economy is expanding so 
rapidly.
    Now, to get us away from oil and to provide the electricity 
that we need both to run our economy as well as to transfer our 
transportation fuel mix, as Mr. Woolsey has eloquently 
explained--I guess I would like to ask all five panelists to 
give just a yes or no answer, since my time is limited--what 
about the rapid expansion of nuclear power plants in this 
country, because nuclear power plants do generate electricity 
and they emit no greenhouse gases. Good idea or bad one? I 
would like each of the five panelists to say yes or no.
    General Sullivan. As long as everybody understands that 
that is not in the report and you have asked me a personal 
question, I will give you a personal answer, Congressman. Yes.
    Mr. Sensenbrenner. Mr. Haass.
    Mr. Haass. You are not going to like my answer, 
Congressman. It is not whether it is a good idea or bad idea, 
it is whether it is a feasible idea. And I think there are 
fundamental questions about the feasibility. Give me 30 seconds 
here.
    We have 103 nuclear plants in the United States that are 
operational. Even with service----
    Mr. Sensenbrenner. My time is running out, sir.
    Mr. Haass. I will do it quickly.
    Mr. Sensenbrenner. It is my time, not yours. Yes or no?
    Mr. Haass. Not every question has a yes or no answer, sir.
    Mr. Sensenbrenner. You pass.
    Mr. Pope. With today's technology, no. We ought to see if 
we can find the technology that enables nuclear power to be 
both safe and competitive. Today it is neither.
    Mr. Sensenbrenner. Admiral McGinn.
    Admiral McGinn. Yes, provided we can do it with adequate 
levels of security and in an economic way. Every dollar that we 
spend----
    Mr. Sensenbrenner. Thank you.
    Mr. Woolsey.
    Mr. Woolsey. Nuclear power doesn't replace oil because only 
2 percent of our electricity comes from oil. Nuclear power is 
clean, which is good, but I would prefer an emphasis on 
renewables, frankly.
    Mr. Sensenbrenner. Second question is since the U.S. has 
got about a 200-year reserve of coal, how about clean coal as 
an electrical generating source? Yes or no, good idea?
    General Sullivan.
    General Sullivan. I pass.
    Mr. Sensenbrenner. Mr. Haass.
    Mr. Haass. Not until we can make it clean and not until we 
can capture it.
    Mr. Sensenbrenner. Thank you.
    Mr. Pope.
    Mr. Pope. Coal should be mined responsibly, burned cleanly, 
and its carbon stored safely.
    Mr. Sensenbrenner. Do I take that as a qualified yes?
    Mr. Pope. Qualified yes.
    Mr. Sensenbrenner.
    Mr. McGinn.
    Admiral McGinn. Clean coal for electrical production, yes. 
Coal for liquid, no.
    Mr. Sensenbrenner. Mr. Woolsey.
    Mr. Woolsey. I agree with my friend, Denny McGinn, and 
coal--the question is can you sequester the carbon affordably. 
You can capture it now with IGCC. If you can sequester it 
affordably, it is a reasonable path and the experiments are 
still being worked on.
    Mr. Sensenbrenner. Now I will make an observation in the 
time that I have left. This shows how difficult it is for 
policymakers to figure out a way to wean us from our dependency 
on oil in a way that does not wreck our economy. I think that 
this is really at the heart of the debate, because if we reduce 
the total supply of energy, the same thing is going to happen 
in the United States that has happened in Europe; jobs get 
outsourced to Third World countries where electric generating 
is cheaper. And if electricity is not affordable, then 
factories end up being closed for certain parts of the day, as 
was reported in one of the major newspapers that happened as a 
result of the cap-and-trade policy as it applied to The 
Netherlands.
    Thank you very much. I think you have kind of helped us to 
show at least how difficult this issue is. Nobody wants to 
wreck the economy. I yield back the balance of my time.
    Admiral McGinn. I would like to make the observation that 
the debate has to take place in increments greater than 5 
minutes, because we were all constrained in our answers by the 
rules of the committee.
    Mr. Sensenbrenner. Yes. I think that we are going to be 
doing a lot of debating on that, and I had 5 minutes. But both 
of those issues had to be on the table. I thank the Chair.
    The Chairman. The gentleman's time has expired. The 
gentleman from Oregon, Mr. Blumenauer, is recognized.
    Mr. Blumenauer. Which is why I saved my 3 minutes in terms 
of having the context.
    I would make an observation, with all due respect to our 
Ranking Member, that we are not going to advance the debate 
with yes or no answers. I think you have identified that in the 
course of your testimony here today. It is not yes or no. That 
is the mindset that has backed us into the situation that we 
are in today.
    I would further comment that the notion that electric 
consumption is a sign of a healthy economy, I think, is highly 
questionable. As we look at some of the other countries around 
the world that by any measure are strong economically and rival 
the United States, they do so with a fraction of our energy 
consumption on a per-capita basis or industrially.
    So the notion that we have to burn a lot of electricity to 
show that we are prosperous is, I think, sadly misguided and 
not supported by the facts.
    I had an opportunity Friday to spend a few minutes with 
Douglas Durst who prides himself, I think, as being the largest 
developer of green buildings in the country. I had made a 
reference that Portland had the largest green certified 
platinum lead building; and I said, not for long because he is 
opening the Bank of America Building on 42nd Avenue.
    Those green buildings are not being constructed by Mr. 
Durst, or in my community where Congresswoman Solis was kind 
enough to spend a day for me, a week ago today, where we have 
more green certified lead buildings than anyplace in the 
country. They are not being built because they are losers 
economically. They repay the 2 or 3 percent premium in a short 
period of time and the developers who are now going up and down 
the west coast and other places will tell you that they command 
a premium in rent because smart business people don't waste 
energy, and we are starting to do the same thing with water.
    So I am hopeful in the course of this discussion we can 
adjust our thinking. I thought, Mr. Woolsey, your point about 
this being the only war where we are financing both sides, and 
the testimony here gave, I think, great weight to the notion 
that this is an economic--this is a national security issue. It 
is also an opportunity for economic security.
    Even if the science was not compelling, which the 
consensus, I think, is these are risks that we should not be 
taking and, again, Congresswoman Solis and I had a 
conversation, maybe not as exciting as you had in Seattle, but 
business is rushing forward to take advantage of this.
    I am concerned about two things that weren't mentioned in 
the course of your testimony. One, we are talking about higher 
fuel efficiency. But there was--the same way that we need to 
talk about conservation of energy for electricity or for oil, 
we have not had a word about the trip that is not taken, about 
shorter trips, less frequent trips, being able to locate 
Federal facilities in places where it is a more efficient use, 
where people don't have to burn a gallon of gas to buy a gallon 
of milk.
    I am wondering if any of our witnesses would talk for a 
moment about more efficient transportation systems that aren't 
single-occupant vehicles spread all over the countryside. Does 
that enter into the thinking?
    Admiral McGinn. Yes, sir, it does. It goes beyond mass 
transportation systems. They are certainly a part of getting a 
more efficient economy and a more efficient quality of life. I 
think it goes even more, fundamentally, than that to community 
and regional: by using rail-enhanced development, for example, 
as I know Portland is a great example for the Nation in that 
regard, by reducing the distances between where people live and 
where people work by creating wonderful downtown neighborhoods, 
or by moving appropriate businesses to where people live.
    But the development path and development plans that the 
country embarks on in the future can have a tremendously 
beneficial effect on our energy consumption and our energy 
efficiency.
    Mr. Blumenauer. Mr. Chairman, I am going to lobby you to 
perhaps, as we do some field hearings around the country, to be 
able to look at what we have been doing in Portland to give 
people choices, not force them on bicycles or on streetcars or 
trolleys or buses or car pools, but give people choices, and 
not make illegal by antiquated zoning--which makes it illegal 
in too much of America for somebody who works in a drugstore to 
live in an apartment above it. I think it is worth 
consideration.
    The second question that I would put to the panel speaks to 
government leading by example. We are spending huge sums of 
money as the largest consumer of energy in the world. The 
United States Government is contributing to this, and not so 
much about rules and regulations and what-not for the rest of 
America, but the ability of the United States Government to say 
we are not going to lease or build anything that isn't lead 
certified by 2012; that we are not going to purchase any 
vehicles that do not meet our standards, and particularly for 
the Department of Defense, which is the--I know there is some 
great research that has been done.
    At our first organizational meeting I think I mentioned the 
fact, if I understand it correctly, an aircraft carrier gets 17 
feet to the gallon.
    Admiral McGinn. Those were the old fossil fuels.
    Mr. Blumenauer. Okay. Maybe Mr. Woolsey, Mr. Pope, if you 
have some thoughts about how the Federal Government might be 
able to jump-start this and be able to get some advantage out 
of the process.
    Mr. Woolsey. Congressman, I just chaired the Policy Panel 
for a Defense Science Board look at energy and defense, and 
there are a number of things that have come out of that and 
that can be done. One of the most important is to make it 
possible for military facilities in the U.S.--and also I think 
other places like hospitals and police stations--to be able to 
use locally generated electricity to replace what would come 
from the grid in case there is an attack on the grid or the 
grid just goes down by a tree branch falling, the way it did 3 
years ago for New York, New England, and eastern Canada.
    Most military facilities would be capable, not all, of 
slimming down their requirements by exactly the type of 
building efficiency steps you are talking about, fixing on 
which of those requirements are absolutely essential to 
carrying on the base's activities and then by using locally 
generated wind, solar, geothermal, others, to be able to 
operate for months rather than just days to hours, which is 
what one has with diesel generators.
    This is something that is of real interest in the Defense 
Department right now.
    Mr. Blumenauer. Mr. Pope, any comment on either of those?
    Mr. Pope. The key function the Federal Government plays in 
setting an example is to create a market. If people know, if 
entrepreneurs know there is a Federal market for a certain kind 
of high-efficiency glass, they can build those factories 
earlier than they can--they can demonstrate that they are cost 
competitive and then private builders can take advantage of 
them.
    The Federal Government should be the market creator for 
innovative new technologies of all kinds, inside and outside 
the Defense Department.
    Mr. Blumenauer. Thank you.
    The Chairman. The gentleman's time has expired. The 
gentleman from Arizona, Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman. I want to thank all 
of you for your testimony. It has been very enlightening.
    Mr. Haass, let me begin with you. You made the point about 
our definition of energy security. I completely agree with that 
and the point about comprehensive approach. Obviously we have 
lots of alternatives, and looking at any one is ill advised.
    In your testimony you talked about diversification of oil 
supplies, increasing domestic production, clean-burning coal, 
expansion of the role of nuclear. You did mention that in your 
testimony, though I am a little bit in doubt now where you are 
on that issue.
    I guess I would like you to talk to me about what you 
believe are the right ways to look for diversified supplies 
here in the United States, and tell me what ones you are 
referring to and would support.
    Mr. Haass. Domestically in terms of, I think, coastal areas 
off limits, should not be off limits. I think there is some 
potential there, given new modern drilling technology. I think 
we should explore that.
    I think there are two areas that should come through loud 
and clear. One has been alluded to several times, which is 
doing something about replacing oil in the transportation 
sector. There are things that can and should be done in the 
near term.
    But the big long-term question on climate change is coal. A 
lot of this debate comes down to coal. That is where we have 
got to think about not--in terms of Congress and the Federal 
Government only licensing clean coal facilities now, and we 
have got to think about putting out enough money so we can 
figure out how to capture--more important, store, sequester the 
carbon.
    Right now this is a big idea. It has not been proven on 
anything like a commercial scale. That to me has got to be one 
of the priorities for the U.S. Government, is to seed an awful 
lot of experimentation and exploration so we find out the best 
way to do it as fast as we can learn it.
    Mr. Shadegg. One of the concerns I have, I heard a general 
opposition to coal gassification in this panel--that may not be 
a fair characterization--and yet I met over the break with a 
number of such people who believe, in the process of coal 
gassification, we can remove a lot of the carbon dioxide better 
than alternative uses of that coal.
    Admiral McGinn. I am very familiar with a project that is 
sponsored by the Department of Energy called Future Gen. Future 
Gen will produce a coal-fired near zero emission power plant in 
2012. The four sites that are potentially going to be the site 
for the first plants are two in Texas and two in Illinois, are 
chosen for two factors: their ability to access coal for fuel 
as well as the geological formations that lend themselves to 
carbon sequestration.
    There are seven regional projects sponsored by the 
Department of Energy in which carbon dioxide is actually being 
sequestered in deep wells, one of which is called Mountaineer, 
and it is being sponsored by American Electric Power as one of 
the utility companies.
    Mr. Shadegg. Time restrains you and me. One of my concerns 
about CO<INF>2</INF> sequestration is it seems to me to be a 
difficult, inefficient process to lock it up permanently as 
opposed to using it in some other way. Would all of you agree 
that other alternative uses we ought to pursue include expanded 
use of hydroelectric power?
    Mr. Sullivan. If we can.
    General Sullivan. Sure. If hydroelectric power is 
available, I suppose it would be great. I am not sure the water 
is going to be available.
    Mr. Shadegg. We have higher technology to use the in-stream 
flow.
    Mr. Haass.
    Mr. Haass. Congressman, I support all of the renewables.
    Mr. Shadegg. Mr. Pope.
    Mr. Pope. In-stream flow and other low technologies, I mean 
low-impact technologies, are very desirable. How scalable they 
are, I don't know.
    Mr. Shadegg. Mr. McGinn.
    Admiral McGinn. Yes. In an environmentally responsible way, 
yes.
    Mr. Shadegg. Mr. Woolsey.
    Mr. Woolsey. Most of the big rivers that can be dammed have 
been dammed and one doesn't want to have any further impact on 
the environment by going that route. But a lot of the existing 
generators from dams are very inefficient, and one can get 
quite a few gigawatts of power out of modernizing the 
generation from existing hydroelectric plants.
    Mr. Shadegg. That takes me directly to an issue. In the 
Commerce Committee we have heard testimony on both the 
limitations on new energy imposed by our current new source 
review policies and by our transmission line setting policies. 
One of the witnesses testified that there is lots of wind power 
potentially in west Texas, but nobody there to consume it, and 
they can't the lines to get it out of that region.
    A number of executives of electric companies came in and 
testified that they could put in much more efficient turbines 
in dams or other plants, including coal and other fossil-fueled 
power plants, but new source review is causing them to find 
that economically unviable at this point in time.
    Would you all agree we ought to examine those policies? Mr. 
Woolsey.
    Mr. Woolsey. I would say absolutely. We have gone beyond 
NIMBY for many transmission lines, to BANANA, Build Absolutely 
Nothing Anywhere Near Anything. We have a lot of stranded 
energy out there, particularly on the Great Plains, huge 
amounts of wind. There may be other innovative ways to get the 
electricity out from that sort of power generation.
    But today it takes about 2 years to permit and construct a 
wind farm and it takes 7 to 12 years to permit and construct 
transmission lines, if you can make it happen.
    Mr. Shadegg.  My time has expired. Is there anybody that 
would disagree we should not, in looking at global warming, 
look at those policies?
    Mr. Pope. You should look at modernizing the grid. You have 
a grid that is outdated and cannot handle and distribute 
efficiently the electricity available to it because of the, 
frankly, poorly designed incentive structures the way the 
industry is deregulated. You need a modern grid as well as more 
grid.
    General Sullivan. Thirty percent of the power at Schofield 
Barracks for Army housing will come from photovoltaic cells, 
and the Army community will receive money back from the power 
department for that. It will go into the grid.
    The Chairman.  The gentleman's time has expired. The 
gentleman from Washington State, Mr. Inslee.
    Mr. Inslee. Thank you. Mr. McGinn, I was heartened by your 
comment about the need of something like a new Apollo Project. 
I just want to let you know that I am introducing a bill called 
the New Apollo Energy Project that I think will fit the bill of 
really inspiring the country as Kennedy did.
    I think we really are in a situation like we were in 1961, 
where we had this enormous technology potential ready to get 
tapped as long as we spark it and I hope we are going to spark 
it in the next couple years in Congress. My bill will do a 
whole host of things, a cap-and-trade system to drive 
investment into these new clean energy systems and so when you 
have photovoltaics on your roof, you get paid for it, your 
utility; green buildings standard so that we build buildings 
that are like the ones that Mr. Blumenauer talked about; a 
clean fuel standard so that when we adopt alternative fuels 
they really are from a global standpoint, that we are not going 
to another dirty fuel.
    Last but not least, significant increase in R&D. I was 
stunned; we have cut our R&D budget in energy by 60 percent 
since 1979. At a time where R&D in defense has gone up 10 or 15 
times, we have actually cut it by two-thirds. That is pathetic. 
We have got to increase it. So I was encouraged by your 
comment.
    I want to ask you about the electrification, Mr. McGinn, 
and coals to liquid. I am really encouraged by the 
electricification of our vehicles. I drove a plug-in hybrid, I 
think it was the first one up on the Hill, with 150 miles a 
gallon. It will be available commercially, goes 40 miles on 
plug-in, then runs on gasoline or flex fuel after that.
    You made a comment about coal to liquid, Mr. McGinn. I want 
to ask you about it. I am very high on alternative fuels. 
Electrification, cellulosic, ethanol, biodiesel, all seem to 
have significant savings in global warming gases of one 
dimension or another. Even using the grid today has about a 30 
percent increase if you do a plug-in hybrid because of the 
efficiency.
    Coal to liquid, I just saw an EPA report, coal to liquid 
would have 118 percent increase, increase in carbon dioxide per 
gallon compared to gasoline today; and if you do sequestration, 
if you do sequestration during the process you still have a 3 
percent increase in CO<INF>2</INF> according to the EPA.
    Now that is a great concern to me to think we are going to 
start a whole new industry and end up going backwards on a 
global warming perspective. I noticed you mentioned when you 
were asked about this you said no. Is that the reason for your 
thoughts or are there others?
    Admiral McGinn. I think you have got it right, Congressman. 
It is a big assumption that we can produce liquid fuel from 
coal in a zero-emission environment. There is a lot of work 
that is ongoing to produce electricity from coal in a clean, 
near zero-emission type of plant. Even assuming we can do it, 
it is the actual chemistry of the liquid produced that has a 
high carbon content and therefore will negate a lot of the 
advantages that you would have. In fact, if you compare it to 
such alternative fuels as cellulosic ethanol, it isn't even in 
the same ball game.
    The other point you make is a very, very good one. As we 
make decisions about going in one technological direction or 
policy direction or another, there are opportunity costs. If we 
spend billions to produce coal-to-liquid plants, that is 
billions that could be used to increase our efficiency of our 
transportation sector, our electrical utility industry, that 
would extract much more gross domestic product for every unit 
of electricity than whatever you were going to get out of that 
coal-to-liquid investment.
    Mr. Inslee. To my friends from coal regions I am going to 
suggest we need to make our investment the smart place, which 
is in clean coal technology to generate electricity. If we do 
that, we have the capacity of reducing CO<INF>2</INF> and, 
importantly, selling this technology to China. This Ramgen that 
has developed compression, they want to sell this to China. We 
all know we have to get China on board. This is an economic 
opportunity if we play our cards right. But if we do it wrong, 
we are going to end up going backwards both economically on 
CO<INF>2</INF>.
    So for those who have resisted dealing with global warming 
because they are afraid of China or because they are afraid of 
our ability to use coal, I would suggest we need to find a 
bipartisan way to move forward on clean coal research to 
electricity rather than coal to liquids. Anybody else want to 
comment?
    Admiral McGinn. I agree with that. Just one caveat is we 
need to make sure we understand what the full environmental 
impacts of coal extraction or coal mining are.
    Mr. Inslee. As Mr. Pope said, mined responsibly, burned 
cleanly, and forgot the third one.
    Mr. Pope. Carbon sequestered safely.
    The Chairman. The gentleman's time has expired.
    The gentleman from Oregon, Mr. Walden.
    Mr. Walden. Thank you very much, Mr. Chairman. I want to 
thank the witnesses for your testimony today. It has been both 
enlightening and helpful in our efforts.
    I want to touch on a couple of things. One of the things I 
learned during the break regarding ethanol and biodiesel is the 
other side of the story, which is what to do with the wet 
distiller's grain or dry distiller's grain after you produce 
the ethanol. At a PowerPoint presentation at Pendleton Grain 
Growers a scientist there was talking to me about biodiesel. 
And pointed out that for a 100-million-gallon-a-year biodiesel 
plant you would need 900,000 tons of feedstock, using canola 
grown on a million acres, that would produce 540,000 tons of 
meal, for which it would take 570,000 cows to consume, and you 
would have 10, I believe million, 10 million gallons of 
glycerine as a byprod. That is just for a 100 million plant for 
biodiesel.
    This was one of the issues I know we looked at ethanol, was 
the wet distiller's grain, 4 to 7 days before it starts 
fermenting again. And there is this whole downside. I was down 
in Klamath Falls and a rancher said, let me tell you what 
ethanol has meant to me: $100,000 higher cost to finish my beef 
because of the price of corn.
    So I am intrigued by especially the military folks and all 
talking about the displacement that may occur in some of these 
nations as drought sets in. We see the same sort of potential, 
I think, as the price of food goes up. Wheat is now chasing 
corn up over $4 a bushel and even higher in some areas. I am 
just concerned about both what it takes to get the feedstock to 
grow our way into alternatives, as much as I support them, and 
then what you do with the byproduct.
    Mr. Woolsey. This is why it is important to move away from 
food-based feedstocks and toward cellulosic biomass. I serve on 
the National Energy Policy Commission and we did some pretty 
careful studies and calculations on this. If you move to 
something like switchgrass, the prairie grass that was out 
there when the buffalo were there, you can grow enough of that 
over the course of evolution--we looked at the next 20 years, 
and reasonable increases in yield, reasonable improvements in 
automobile mileage--you can grow enough switchgrass on 7 
percent of U.S. farmland, which is what is called the 
conversation reserve program, the soil bank. It is over half 
now planted in switchgrass. If you grew that just in 
switchgrass, that 30 million acres, turned that into cellulosic 
ethanol, you would be able to replace about half of the 
country's gasoline. Now, that assumes some modest growth in 
mileage along the lines of what the Chairman and others of you 
have suggested for automobile vehicles and assumes a modest 
increase in yield.
    Mr. Walden. Let me talk too about--I obviously represent 10 
national forests. Enormous amount of woody biomass. People are 
going to get sick of me talking about forests. You can use 
woody biomass as an ingredient. We have catastrophic fires.
    Mr. Chairman, I would like to put in this record--and I 
will get you a copy of this for that purpose--a publication 
from California Forests. I hope our committee members--I will 
make it available to them individually. A lot of activity going 
on in the State of California on forest management practices as 
a way to use forests as a carbon sink. I don't know, Mr. Haass, 
Mr. Woolsey.
    The Chairman.  Without objection we will include that in 
the record. If you have copies we will distribute it.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7964A.097
    
    [GRAPHIC] [TIFF OMITTED] T7964A.098
    
    [GRAPHIC] [TIFF OMITTED] T7964A.099
    
    [GRAPHIC] [TIFF OMITTED] T7964A.100
    
    [GRAPHIC] [TIFF OMITTED] T7964A.101
    
    [GRAPHIC] [TIFF OMITTED] T7964A.102
    
    [GRAPHIC] [TIFF OMITTED] T7964A.103
    
    [GRAPHIC] [TIFF OMITTED] T7964A.104
    
    [GRAPHIC] [TIFF OMITTED] T7964A.105
    
    [GRAPHIC] [TIFF OMITTED] T7964A.106
    
    [GRAPHIC] [TIFF OMITTED] T7964A.107
    
    [GRAPHIC] [TIFF OMITTED] T7964A.108
    
    [GRAPHIC] [TIFF OMITTED] T7964A.109
    
    [GRAPHIC] [TIFF OMITTED] T7964A.110
    
    [GRAPHIC] [TIFF OMITTED] T7964A.111
    
    [GRAPHIC] [TIFF OMITTED] T7964A.112
    
    [GRAPHIC] [TIFF OMITTED] T7964A.113
    
    [GRAPHIC] [TIFF OMITTED] T7964A.114
    
    [GRAPHIC] [TIFF OMITTED] T7964A.115
    
    [GRAPHIC] [TIFF OMITTED] T7964A.116
    
    [GRAPHIC] [TIFF OMITTED] T7964A.117
    
    [GRAPHIC] [TIFF OMITTED] T7964A.118
    
    [GRAPHIC] [TIFF OMITTED] T7964A.119
    
    [GRAPHIC] [TIFF OMITTED] T7964A.120
    
    Mr. Haass. Congressman, I think you are onto a big topic. 
One of the cheapest, potentially, and certainly most available 
aspects or dimensions of a climate control policy has got to be 
to encourage forestation I----
    Mr. Walden. And proper management.
    Mr. Haass. Discourage deforestation. We should be looking 
at our aid policy, what sort of practices in places like 
Brazil, Indonesia, and the rest that we encourage. It is also 
going to have a big impact on whatever takes the place of 
Kyoto. One of the failings of the existing global approach is 
it couldn't figure out how to factor in essentially benefits or 
premiums for sinks. We need to think when we come up with a 
post-2012 global framework how is it we essentially incentivize 
and reward those.
    Mr. Walden. Let me interrupt because I will run out of time 
here. I wish we had hours to do this. I would be happy to meet 
with any of you individually. I also think we ought to go to a 
labeling system so consumers know when they buy a product what 
kind of carbon tradeoffs. Because I think American consumers, 
like most of us if not all of us on this panel, want to do the 
right thing.
    Mr. Haass. Home Depot would agree.
    Mr. Woolsey. Congressman, the point you made about the 
right kind of management of the forest being compatible with 
the production of fuel is exactly right. It is in the forest so 
you don't get bonfires and forest fires. Then that cellulosic 
biomass can either be used to produce ethanol, produce methanol 
if you gasify it, and used to produce renewable diesel in 
thermal processes. There are lots of ways to get at it. I think 
it is a very positive direction.
    The Chairman.  The gentleman's time has expired. The Chair 
recognizes the gentleman from Connecticut, Mr. Larson.
    Mr. Larson. Thank you, Mr. Chairman. Mr. Chairman, before 
you start the clock on me, just a procedural question.
    The Chairman.  Hold on that clock.
    Mr. Larson. Given the time limitations that we have, would 
it be possible, especially for a number of the panelists who 
would like to respond further to an issue, that once posed a 
question that would require, as I am sure some of my questions 
will, further expansion, that they be able to submit to the 
committee further explanation on what their answer might be.
    I am not specifically referring to Mr. Haass, but I know he 
wanted an opportunity to be able to elaborate on what 
oftentimes in terms of yes and no questions become very 
problematic. You ought to have that opportunity for the 
committee, and I would like to be the beneficiary of that.
    The Chairman.  I think, without objection, we will allow 
each of the witnesses to elaborate on any one of these points 
that they would like to, and put it in the record without 
objection.
    I now will recognize the gentleman from Connecticut for 5 
minutes.
    Mr. Larson. With that I have four specific questions that I 
would like to ask. One of them deals with the Kyoto Accords. 
The other deals with the establishment of financial platforms. 
The third deals with hydrogen fuel technology and its 
relationship to nuclear. And the last deals with a carbon tax.
    Let me start with, first and foremost, with Kyoto. In the 
opinion of the panelists, if you were advising the Bush 
administration, should we have pulled out of the Kyoto Accords? 
I realize it is longer than a yes or no answer. If you could 
give me a yes or no answer.
    General Sullivan. It was not a part of our group, although 
what I certainly feel and I think what we feel as a group is we 
need to be participating in follow-on to Kyoto, any 
international organization that is addressing these issues.
    Mr. Larson. Mr. Haass.
    Mr. Haass. Kyoto itself, I would argue, is deeply flawed, 
but the United States ought to be a full participant in its 
follow-on.
    Mr. Larson. So you would have advised to follow up and stay 
with it.
    Mr. Haass. Pardon me?
    Mr. Larson. You would have advised the administration to 
stay with it.
    Mr. Haass. To continue talking about the issues but not to 
accept the specifics of the Kyoto framework.
    Mr. Pope. We went it alone on Kyoto, we were left alone in 
Iraq.
    Admiral McGinn. I think beyond Kyoto is where we need to 
go. There are some downsides to Kyoto that would limit its 
positive effect, but I think we definitely need to be leading 
in these issues and international forums and treaties.
    Mr. Woolsey. The cap-and-trade system has worked well for 
sulfur dioxide in the United States. The international market 
makes it a lot more complex, but either a carbon tax or carbon 
cap on trade along the lines of Kyoto, modernized and updated, 
is going to be essential to getting at coal's contribution to 
global balance warming initiatives.
    Mr. Larson. Are the Kyoto Accords and pulling away from the 
nuclear testimony ban treaties and the whole notion of a policy 
of unilateralism a wise position for the country to continue to 
follow, especially as relates to national security? Start with 
you Mr. Woolsey.
    Mr. Woolsey. Well, it is an intricate question, 
Congressman. Let me say that moving to nuclear power as an 
alternative to coal internationally creates huge problems, 
because the international arms control regime for all of this 
doesn't work. It doesn't bar countries from getting into the 
fuel cycle. And as a result, we could handle substituting for 
coal with nuclear power in the United States if we could ever 
figure out where to store waste, politically. But from the 
point of the view of the world moving toward nuclear power, we 
would have to have a completely different kind of international 
treaty regime than we have now in order to keep that from 
adding to proliferation.
    Mr. Larson. Admiral.
    Admiral McGinn. I agree with Mr. Woolsey.
    Mr. Pope. So do I.
    Mr. Larson. Mr. Haass.
    Mr. Haass. Global problems require global solutions. 
Climate change is one of the quintessential global problems. We 
are going to have to be involved in it, in part if we want 
others like China and India to be full participants as well.
    Mr. Larson. General.
    General Sullivan. Mr. Congressman, I served during the Cold 
War. The bulk of my time in the Army was during the Cold War. 
This Congress spent billions, trillions, on the Cold War. We 
were able to succeed, however you define success. That was a 
conflict which we managed.
    In my view we are involved in an issue here, you are 
discussing here where we could have a climate change or any 
number of things happen, and I think we need to have an effort 
which is equally as global and serious here in the United 
States. I believe that the security of the United States is at 
risk on some of these issues.
    Mr. Larson. Because my time is about to run out, two-part 
question with regard to both financial platforms--several of 
which have been discussed--in terms of the standards that are 
going to be needed, and where is the funding going to come 
from, and what kind of incentives either through the tax base 
that would inspire entrepreneurialism, as Mr. Inslee talked 
about, or in the article that the Chairman started at the very 
start of this, referring to Thomas Friedman, after he went 
through a very lengthy article concludes by saying this, 
essentially; that if we are not willing to focus on some kind 
of carbon-related tax that directly provides the fencing-off of 
dollars that will go to directly assist the goals that many of 
you have outlined from a national security perspective, et 
cetera, we will not be able to move forward. It is just all 
folly and discussion.
    Your comments.
    Mr. Haass. There is going to have to be--if there is going 
to be a global approach here--either a carbon tax or a cap-and-
trade system or some hybrid involving the two, and the good 
news is there is 4 years or so to work that out on a 
multilateral basis. But first we, ourselves, the United States, 
I think also have to figure out what we are prepared to 
support.
    Mr. Pope. You can do this either by taxing carbon or by 
selling the permits in a cap-and-auction system. Either one 
generates enormous revenues by getting people to stop doing bad 
things, and enables you to lift taxes which are discouraging 
people from doing good things like employing people.
    Mr. Woolsey. A carbon cap-and-trade is essential, or a 
carbon tax or some combination, but it will not solve the oil 
problem. Oil is over 40 percent of the world's emissions of 
carbon, and you do not affect oil substantially at all, and 
especially because we only make 2 percent of our electricity 
from oil today. So oil is a separate issue. One has to deal 
with it separately. Carbon cap-and-trade won't solve it.
    Admiral McGinn. Carbon tax or cap-and-trade is very much 
needed. Take a look at the Chicago carbon exchange for the 
marketplace dynamics. The marketplace and industry are looking 
to the United States Government for some leadership in this 
regard. They want to get out of the uncertainty and get on with 
deploying the right kind of technology and process.
    The Chairman.  General Sullivan, do you want to have the 
last word on that?
    The gentleman's time has expired. The gentlelady from 
Michigan, Mrs. Miller.
    Mrs. Miller.  Thank you very much, Mr. Chairman. I just 
think this has been a fascinating discussion and a very, very 
interesting and challenging issue. And I am really very hopeful 
of the work that can come out of this committee with the kinds 
of questions that have been asked. And, again, in full 
disclosure here, I do live in southeast Michigan, and I 
represent the domestic auto industry in a very big way. It is 
literally our lifeblood there in Michigan, and we do feel 
sometimes as though we are under attack. And I guess what I 
want to say here is that we want to be partners, not 
adversaries, in getting to where we all want to be.
    And I would mention here, as has been mentioned by many of 
the witnesses, about 90 percent of all of the transportation 
modes are because of our reliance on oil, whether that is cars 
or vehicles or rail or aviation. And if you look around the 
globe and think about how some of the other nations are dealing 
with the challenge of climate change or their energy needs--I 
mean you have in Brazil, which is always highly touted about 
them using such a high percentage of ethanol--and then you can 
go over to Europe and it is interesting to note at this time, 
they still have voluntary mandates--they have no mandates, it 
is voluntary on their vehicles there. And even though they have 
small vehicles, in a lot of ways there are incentives, of 
course, because of their very high tax on gasoline, et cetera. 
Drive by any of those beautiful buildings and they are all 
various shades of gray because of all the emissions that have 
happened in Europe. And, in fact, what they are doing in Europe 
is really focusing on aviation as a huge part of climate 
change, although that is only about 3 percent, they will tell 
you, of what is happening in regards to pollution.
    They are now talking about emissions trading and everything 
else for aviation for all of the links, and I am not quite sure 
how all of that is going to work. But I would say this: There 
has been a lot of talk about utilizing new technologies, et 
cetera, how the government could help with hydroelectric, how 
the government could help with coal, better clean-burning coal, 
et cetera. And I am just wondering whether or not, when you 
look at an industry like the domestic auto industry that spends 
probably more on R&D than any other industry in the nation, and 
yet we are under the microscope again to continue to do a 
number of things, do any of you have any comment, or do you 
think that the Federal Government has any role to play in 
assisting the domestic auto industry with R&D for various types 
of very creative kinds of things that they are coming out with 
now? You can think about the Chevy Volt, the plug-in Chevy Volt 
that was just showcased at the North American International 
Auto Show, or the Ford edge, or some of these different kinds 
of----
    In other words I would say this: When you look at, for 
instance, lithium ion batteries, and we see that the Japanese 
are about to have a corner on that market, and why is that? 
They are being assisted by their government. Is there any role 
for the Federal Government to assist the domestic auto 
industry, which by any definition is absolutely struggling now?
    Again, we want to be proactive about it. I think we are. 
And I guess I would also like to comment, again, Mr. Chairman, 
as we are thinking about field hearings, that I would like us 
to consider coming to Detroit.
    Mr. Pope.  Let me respond to that by saying that I believe 
that if we want to enable the American auto industry to be a 
viable vibrant partner in the future, we need Federal 
assistance, and we need a national compact between the Federal 
Government and the auto industry. We don't just need help with 
R&D. The auto industry actually needs help to accelerate the 
turnover of old infrastructure.
    The American auto industry faces much higher interest rates 
than its foreign competitors. The American auto industry has 
very serious legacy costs, which Germany and Japan do not have. 
And we need to cut a bargain in which the auto industry commits 
to help the Nation solve its global warming and oil dependence 
problems and the Nation commits to help the auto industry 
modernize and become competitive if we are serious about having 
an American auto industry, and I think we have an obligation to 
do so.
    Mr. Woolsey.  Congresswoman, I think this is a very 
important subject, and I believe that there is definitely a 
Federal role, but the Federal Government has not done this well 
in the past. One thing it has done, for example, for the last 
number of years, is encourage, with a great deal of resources, 
hydrogen fuel cells for family automobiles. This is, as far as 
I am concerned, one of the most expensive, most wasteful, and 
least desirable innovations in transportation in a long time. 
Not only to make this work does one have to bring the cost of 
fuel cells down by a factor of 40 to 50, and one would have to 
figure out a way to have a nationwide distribution system that 
one former Republican Secretary of Energy told me would be at 
least a trillion dollars' worth of family fueling stations, but 
one has to get away from the problem that by changing from 
natural gas to hydrogen, one loses about a third of the value 
of the energy, and by changing from electricity to hydrogen 
back to electricity again, one loses about three-fourths of the 
energy. One can put the electricity in the car in the first 
place as a plug-in hybrid, as you said, or one can put the 
natural gas in the bus in the first place.
    So for the Federal Government to get into something and say 
this is the solution, this is the single solution, its history 
has not been good. I think it would have to be something like 
Sima Tech, which changed very much for the better our ability 
to produce and manufacture computer chips in this country for 
things like battery technology.
    The Chairman.  The gentlelady's time has expired. The 
gentlelady from South Dakota, Ms. Herseth.
    Ms. Herseth.  Thank you, Mr. Chairman.
    And I appreciate the written testimony you have submitted. 
As I have reviewed that, some of you have talked a bit about 
corn-derived ethanol. Mr. Woolsey, you mentioned some of the 
limitations of corn-derived ethanol.
    I represent the State of South Dakota, a leader in that 
area. We wouldn't be where we are today with the advantage of a 
potential for cellulosic ethanol without the advancements, 
before a market was truly created in the Energy Policy Act of 
2005 for renewable fuel standards, and what we are able to 
accomplish and the types of companies that have evolved as 
entrepreneurs and innovators to advance cellulosic ethanol 
production.
    I think when we talk about the geopolitical implications of 
warming and climate change in each of the areas where all of 
you have worked and the life experiences you bring to the table 
today, I would imagine that there probably wouldn't be a lot of 
disagreement about the relative stability and economic 
prosperity of a country based on the state of its agriculture 
sector.
    We see how Saddam Hussein has devastated over time Iraq's 
irrigation system, other areas of its agriculture. We know what 
President Karzai is dealing with in trying to move farmers in 
southern Afghanistan to plant something other than poppy.
    So when we look at our objectives of energy independence 
and addressing carbon emissions, I think agriculture, not just 
American agriculture but agriculture across the board globally, 
really presents us with part of a significant solution. And I 
am just wondering if any of you could comment on whether it is 
renewable fuels, whether it is wind energy.
    South Dakota has a wealth of wind energy but the problem is 
transmission. Where you see our policy--our domestic policy and 
facilitating the growth of renewables for our domestic energy 
needs, but also the sharing agreements, perhaps with India and 
China and with others, so that we don't stifle the economic 
growth that some of those countries have faced at the same time 
they are grappling with significant problems in rural parts of 
their countries because of the migration to cities.
    Mr. Woolsey.  I think the renewable technologies you are 
talking about, particularly wind and, increasingly, solar, with 
Thin Film Solar and Nanosolar the costs are going to come down, 
and that is a way for China and everybody to grow without 
negatively impacting the environment.
    And from the point of view of rural prosperity in the 
United States, if we replaced only one-quarter of our oil 
imports with domestically generated energy--so that is, let's 
say, about 80 million barrels--if we replaced that, we would 
create something like 800,000 jobs, most of them in rural 
America, and the $80 billion that was net farm income last year 
would effectively be doubled. And that is just replacing a 
quarter of our oil imports with domestically generated energy. 
This could mean very substantial prosperity for rural America.
    Mr. Pope.  Let me speak to India, because India is still a 
nation, the majority of whose population is still rural. It 
makes absolutely no economic sense to electrify India by 
stringing wires between villages from central station power 
plants. It is nuts. India could electrify much more efficiently 
and much more cleanly if it had available to it the whole array 
of biomass, solar, and wind technologies suitable for small-
scale village deployment. If the United States would lead the 
way in developing those technologies, we could have a 
phenomenal new industry, and we could be the world leader in 
that industry.
    Admiral McGinn.  I would like to add, the American farmer 
has a key role to play in meeting this energy challenge. We 
need to be careful, though, in trying to solve one problem--
energy dependence, for example, oil dependence--that we are not 
creating another by introducing inefficiencies of using food 
crops to produce fuel. We need to keep our American 
agricultural economy very much informed by the technology that 
is coming out in terms of crop yield as well as the kinds of 
crops that lend themselves more easily to the process of 
creating a bio-based fuel.
    Ms. Herseth.  General Sullivan.
    General Sullivan.  I concur. This is all interrelated. And 
indeed some of our exports are feeding people who are living in 
countries without a robust agricultural society, and they need 
foodstuffs, and many of those foodstuffs come from the United 
States. So, you know, it is all interrelated. It is a very 
complex equation, and before we rush off, I think, on some of 
these issues, we need to be careful.
    Ms. Herseth.  And I don't disagree with the caution there. 
Although the alternative argument that I will put out is, one 
of the concerns that some developing countries have had with 
the state of their agriculture is that the United States and 
other countries, because of our technology and our high yields 
and our production, have actually been dumping commodities on 
the export market at a loss. It is not good for our farmers. It 
is not good for farmers in developing countries.
    So it is actually the more we use some of those crops for 
value-added fuel production, as well as environmentally 
friendly livestock production with anaerobic digesters that are 
a fully integrated system, that this actually could help as it 
relates to the global agricultural environment and give some 
producers in developing countries an opportunity to get a fair 
price for their commodity, if we are not dumping some of our 
surplus out onto the export market.
    Another question if I might, and I thank you for those 
responses. But I do want to move just quickly, before my time 
is up, to the issue of capturing--carbon capturing 
sequestration.
    Earlier today I was meeting with the CEO of the Southern 
Company and talking about nuclear energy and what happened in 
France and Japan of using the reprocess of spent fuel and 
reprocessing that spent fuel, whereas we made a decision back 
in the 1970s to store it rather than to reprocess it. So when 
carbon--when CO<INF>2</INF> is captured in electricity 
generation, for example, what can be done with it besides just 
pumping it back into the ground, sequestering it? Are there 
other potential industrial uses of CO<INF>2</INF>? And is there 
any way to further process CO<INF>2</INF> so that it is no 
longer posing an environmental threat?
    In other words, is there potential in technology beyond 
sequestration that we should be more fully evaluating based on 
what may be happening elsewhere?
    Mr. Woolsey.  There are, Congresswoman. One of the more 
interesting sets of developments has to do with algae that eat 
CO<INF>2</INF> and can be used to produce lipids to be turned 
into something very much like biodiesel. There is some work on 
that going on up at MIT, I think, now. Most people believe the 
volumes of CO<INF>2</INF> that would be produced if you 
continue to use carbon--use coal for electricity production, 
though, is going to require a relatively cheaper way than we 
have now of sequestering the carbon in the deep saline aquifers 
a mile or two down in the earth. At those depths, the 
CO<INF>2</INF> becomes liquid and can dissolve into saltwater. 
It is not entirely clear that that is foolproof from the point 
of view of ever getting out. But to a number of scientists I 
have talked to, it looks good. The question really is the 
expense.
    The Chairman.  The gentlelady's time has expired. The Chair 
recognizes the gentleman from Oklahoma, Mr. Sullivan.
    Mr. Sullivan of Oklahoma. Thank you, Mr. Chairman. I again 
appreciate the panelists coming today, and I just have a 
different question for each of you. And I will start with 
General Sullivan. I like your name too.
    General Sullivan, in order to make the U.S. less vulnerable 
to climate change, should Federal and State governments 
encourage building new refineries in different geographical 
locations? You know, I think Katrina kind of underscored the 
fact that we may need to do this with a lot of the refining 
capacity down there.
    General Sullivan. Well that is not an area that our study 
group looked at. I would, just for what it is worth, it seems 
to me that our refinery base is way outdated and we are in 
danger of real problems. But that is a subject that I am not 
prepared to address. Based on our report--that is just an 
observation on my part--technology is way outdated, and, 
frankly, we are very vulnerable.
    Mr. Sullivan of Oklahoma. I agree. We haven't built one or 
expanded one in many, many decades.
    Mr. Haass, I have a question for you. In your testimony you 
say that another way to increase diversification of supply is 
to increase domestic production. Do you support opening the 
Arctic National Wildlife Reserve, ANWR, for domestic production 
of oil? And also what about the Outer Continental Shelf?
    Mr. Haass.  Congressman, I would support opening up coastal 
areas. I would be comfortable in opening up ANWR. I think new 
drilling technology is far more efficient. It is also far more 
reliable. The only caveat I would say is many of the 
proponents--I am not suggesting this in your case--but many of 
the proponents who are doing just this exaggerate the 
consequences for U.S. energy security. It will not have a 
transformational or fundamental effect on our overall energy 
security picture. I think it is important that we do it both 
substantively and symbolically but we shouldn't exaggerate the 
likely results.
    Mr. Sullivan of Oklahoma. Okay. And Mr. Pope, the U.S. will 
be using coal for its electric generation for the foreseeable 
future. Thus, to decrease CO<INF>2</INF> emissions, the U.S. 
must develop carbon sequester technology. However, this 
technology is not available today on the commercial side. 
Therefore, what technology, if any, would we replace the coal-
generated electricity currently produced?
    Mr. Pope. Well, I don't think we are in a situation at the 
moment where we can or should shut down our existing coal-fired 
capacity. We need to replace it over time, and gradually. It 
would be economically quite silly to try to shut it all down. 
We don't favor that. In the short term we believe there are 
enormous opportunities to make our own electricity use more 
efficient, to develop renewables, and to do the research in 
carbon sequestration to determine whether or not it pencils 
out.
    I think it will work out. I don't know whether it will 
pencil out. But our studies show that we could meet all of our 
projected electricity needs between now and 2030--without using 
any new coal-fired capacity, without in fact using any new gas-
fired or nuclear capacity, although we are likely to have more 
of those--just by deploying existing efficiency and renewables 
within today's price range. So we believe the numbers are there 
to solve the problem between now and 2030, which we also 
believe will give us time to develop the new technology we will 
then need.
    Mr. Sullivan of Oklahoma. Thank you.
    And Vice Admiral, you know the Navy has had great success 
with nuclear power as a fuel source. You did comment on it a 
little while ago, about you thought it was good, safe, and some 
other issues that you discussed. How do you see that playing 
out? What is it going to take for us to embrace that more? And 
do you think we can do it, have the facilities that--and 
environmentally safe and also safe for citizens in this 
country?
    Admiral McGinn. I think the challenge of increasing or 
revitalizing our nuclear power industry lies along the security 
concern, the waste concern, what do we do with the waste? We 
have wet waste building up with our existing legacy plants now, 
yet we can't seem to come to a national consensus on how to 
treat that for the long term. There is the money part of it. 
How much does it cost, real costs to design, build, deploy and 
produce nuclear-powered energy versus other sources that may be 
more economically viable? And I think that that is a key 
question that has to be answered before we go full bore ahead.
    Mr. Sullivan of Oklahoma. Thank you.
    And Mr. Woolsey, global warming is a global problem that 
requires global solutions. How do you suggest that we go about 
getting China and India to actively participate in reducing 
carbon emissions?
    Mr. Woolsey. This is the----
    The Chairman. Please answer the question.
    Mr. Woolsey. This is an issue in which we have everything 
to gain, I think, by close cooperation with both India and 
China. We still are the seat of much of the innovation in these 
areas such as solar and wind and geothermal. And I think that--
and biomass transportation fuels.
    We have to understand that China and India want to 
economically, and they need to. From the point of view of their 
own internal stability, it is in our interest for China to be 
economically prosperous and stable. But we really need to work 
with them and develop the technology and share it with them and 
market it, that will help them do that without putting a lot of 
carbon into the atmosphere.
    And there is a certain urgency here because they are 
putting out now, I think the last time I saw, a couple coal-
fired plants a week. So we really need to put on the fast track 
our work on these renewables and renewable fuels, and help them 
move away from oil and help them move away from the dirtier 
forms of coal.
    Mr. Sullivan of Oklahoma. Thank you, sir. I thank the 
gentleman.
    The Chairman. The gentleman's time has expired. The 
gentleman from Missouri, Mr. Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Let me first of all speak with you, General Sullivan. You 
mentioned at the beginning of your comments that you went into 
this process as somewhat of a skeptic. And my interest was 
piqued because I am wondering if there was some kind of 
defining moment, some defining piece of information you 
received that caused you to want to pursue the report that is 
now being discussed, hopefully all over the country. And I have 
a follow-up from that.
    General Sullivan. That is a terrific question because I 
don't think I am unique in this group, in that none of us--
there are a couple who are probably more technically qualified 
than the rest of us, but most of us are essentially soldiers, 
sailors, airmen and marines, without any particular technical 
skills in many of the areas you are talking about here.
    I happen to have grown up in the Northeast, and I was in 
Vermont where in January it normally requires about four layers 
of clothes and a stocking cap. And believe it or not, the sap 
had not stopped running, which was not good for the maple syrup 
industry. And then I discovered as a result of this study that 
in addition to that, many kinds of fish that I had fished for 
off of Cape Cod in Massachusetts I no longer could buy in 
restaurants around the United States, and one reason admittedly 
was overfishing.
    Another reason is plankton reduction, which may sound like 
a silly thing for an Army guy to be talking about, but it is a 
fact. And the maple tree is in fact dying out in New England. 
And a lot of those things came right home to me. And I think 
once I started getting interested in this, why is all of this 
happening, it became apparent that, number one--first of all I 
am not a scientist, as I said, and I didn't become one--but I 
looked at what I saw, and I saw the trends. And I said, you 
know, in my former life, I never had 100 percent certainty, and 
if I stuck around waiting for people to give me 100 percent 
certainty, I would get killed waiting for it. So if you want to 
know what my epiphany was, there it was. And it became very 
local, and I didn't like what I saw. And I don't like what I am 
seeing and I think it has huge implications for us, all of us.
    Mr. Cleaver. You ought to write an op-ed piece just 
describing what you just said. I think it would be very helpful 
because I have heard all kinds of reasons of why this issue has 
surfaced. I heard someone on a TV talk show say that this was a 
conspiracy of liberals to get money to college professors. And 
I mean--and that is, I thought, one of the more intelligent 
analyses.
    But as a military--some of you, those of you who are 
military, let's assume that for the most part this is just hype 
and that there is only a 6 percent chance that the scientists 
are correct. How many people in the military do you think would 
give their soldiers a gun and tell them that there is one 
bullet, so you only have a 6 percent chance of blowing your 
brains out if you pull the trigger? How many volunteers do you 
think you would get for that? Thank you.
    The point I am trying to make is that even if there is a 
low percentage that this is some hype, isn't it worth the 
effort not to take that 6 percent chance on doing enormous 
damage to this world that we have inherited?
    General Sullivan. Mr. Congressman, you know, what we were 
really looking at, and it has been stated here, is threat 
multipliers. It is a threat multiplier. And Somalia is probably 
the case in point. I was the Chief of Staff of the Army during 
the Somalia episode where we lost 19 men, they all happened to 
be men. But that is hard. The Somalia issue is related to the 
issue that we are talking about here. It was drought. It was 
drought that caused the original problem. Drought and a lack of 
food. The instability that was created by drought caused the 
warlords to try to control the food that was coming in from 
nongovernmental agencies, to include the United States and the 
U.N., and conflict erupted and people started dying because the 
warlords were controlling the food and they were giving it to 
their tribes. Migration, where we see Somalis moving into Kenya 
and Ethiopia, they couldn't control that migration. One thing 
led to another. The same thing is what is driving Darfur, and 
there has to be some recognition that these issues are, at the 
heart, environmentally related.
    Mr. Woolsey. Congressman, your percentage mention of 6 
percent makes a very solid point, which is that we insure 
against a lot of things in this life that we don't think there 
is an extremely high probability that are going to occur, like 
lightning striking our homes. And the scientific consensus on 
global warming seems to me to be quite substantial now with 
some effect. There is some question to the degree, but the 
consequences are so awful if we don't--if we don't do 
something, that I very much agree with your analogy. And as a 
matter of fact, Thomas Shelling, Nobel Prize winner in 
economics, a few months ago had an op-ed in The Wall Street 
Journal making exactly that point. This is like insurance.
    So I think that is really a very key insight into all this. 
And the key thing for the insurance is that although we have to 
pay a premium with respect to coal and carbon, that might, you 
know, reduce our own consumption or reduce GDP, that happens 
all the time when we buy insurance for the family. But with 
respect to oil, essentially there is no premium because the 
steps we want to make by moving toward renewables and moving 
toward electricity use are the same steps you would want to 
take if you were taking this from the point of view of purely 
national security or any of a number of other--rural 
prosperity, any of a number of other desirable objectives.
    So with respect to oil, people don't even have to believe 
in global warming if they don't want to. I think they are going 
to be driven to doing the same things for a whole host of other 
reasons.
    With respect to coal, they really do need to face that they 
are going to have to pay some kind of a premium, but I think it 
is certainly a justifiable premium, given how disastrous the 
situation could be.
    Mr. Pope. I think, Congressman, we have moved past the 
insurance era. A decade ago we were buying insurance. We are 
now in a situation where the wastebasket is on fire and we are 
sitting around the dining room saying, well, should we do 
anything about it? Well, maybe it will put itself out. Well, 
maybe it will, but maybe it won't. Maybe we ought to get a fire 
extinguisher.
    Mr. Haass. If I could take 30 seconds. It is not something 
that--in many cases we don't have to worry about cost, because 
we can do a lot of what needs doing without incurring an 
economic cost. Indeed, one of the few areas we made progress in 
over the last 10 years has been measures of energy intensity.
    Essentially in the American economy what sort of GDP output 
are we getting for a unit of energy input? We are making 
progress. So actually, it was an area where I take exception to 
what Mr. Sensenbrenner said before. It is no longer a measure 
of a successful economy where electricity consumption or 
production is going up. What we have now shown, increasingly, 
is that we can detach economic performance and economic success 
from greater energy use. That is the great success here, which 
is why over time I don't think you need to sell this again as a 
cost worth paying. If we get it right, we can actually do this 
in ways that make financial sense.
    The Chairman. The gentleman's time has expired.
    Mr. Cleaver. Thank you.
    The Chairman. The gentlelady from Tennessee, Mrs. 
Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    And, Mr. Haass, I am going to come to you. I could tell you 
were wanting to add a little bit more as my good colleague was 
asking about floods and droughts and crop failures. And the 
IPCC report that is out reported that many of these disasters 
already occur from time to time, whether or not global warming 
plays a role.
    So let's talk about this. And shouldn't the disasters, such 
as floods and droughts and crop failures and diseases be faced 
directly, regardless of global warming?
    And then the other part of this question in this report, 
many of our leading economists and scientists have stated that 
these countries need to prioritize funding to deal with some of 
these disasters in health, water, education, hunger, and 
prioritize that first before dealing with climate change or 
global warming. Do you want to go ahead and respond?
    Mr. Haass. I am a great believer that developing countries, 
like anyone else, need to prioritize. But some of those 
choices, it would seem to me, would be false. If we want 
countries--say in Africa--would face a large part of the 
developmental challenge. Intelligent land use, intelligent 
water use are part and parcel of a fundamentally successful 
development strategy. They don't have the luxury of wasting 
units of energy. They need high energy efficiency, particularly 
countries which aren't blessed, like to some extent may be 
cursed, but don't have large amounts of domestic energy. If 
they have to import it, it will simply exacerbate the problems 
they face.
    So rather than seeing these necessarily as tradeoffs, 
Congresswoman, I would suggest in many situations what you are 
essentially arguing for is a comprehensive developmental 
strategy that then involves energy efficiency, intelligent land 
use, intelligent water use and so forth.
    Mrs. Blackburn. One of the things that I think has not been 
lost on any of us this morning is that you all seem to be in 
agreement that there is no silver bullet in addressing the 
situation; that whatever we do, it is going to be a mix. Part 
of you like nuclear, part of you don't.
    TVA is in my district. Of course they are looking at moving 
up to 40 percent of their power generation to nuclear. Some of 
you like the coal to liquid, some of you don't. And some of you 
think that that is going to be an option, some of you don't. 
And I think that it points out why we do need to do some things 
that are going to be comprehensive in nature, that are going to 
take some time and are going to require some innovation.
    And before I turn my time back, I think, Mr. Pope, I will 
come to you on this. Let's talk a little bit about ethanol. And 
you may have addressed this while I was out of the room for a 
meeting. Ethanol does in fact emit more VOCs than gasoline?
    Mr. Pope. Yes, it does.
    Mrs. Blackburn. It does. And don't the VOCs increase smog 
and affect human and animal health more than the gasoline 
emissions?
    Mr. Pope. Well, there are some issues with ethanol in terms 
of air quality. They can be managed with vehicle design. We are 
going to need to redesign a system. If we are going to move, as 
I believe we should and I believe we probably will, to a system 
in which we have a mixture of petroleum-based fuels and 
alcohol-based fuels, we are going to have to redesign system 
components and pollution to deal with that. I believe it is 
manageable. But I don't believe ethanol is the silver bullet 
either. What she said is very important. We are going to need 
to do a number of things and I think ethanol will be one of 
them.
    Mr. Woolsey. Congresswoman, those emissions vary with the 
mixture between ethanol and gasoline. One of the reasons many 
environmental groups have come to support E85, 85 percent 
ethanol, but have not been particularly enthusiastic about 
lower levels of the mixture, is when you get up to that 
substantial share, ethanol does not, the mixture, E85 does not 
emit worse than gasoline. And in any case, one is replacing oil 
with ethanol if one manages the emissions properly. And that in 
turn means that you are not putting other things into the 
atmosphere, such as the so-called aromatics, benzene, toluene, 
xylene, which are extremely carcinogenic and which are present 
in our gasoline today.
    So it does have to be managed. One can't just randomly mix 
wherever one wants. But there is a way to go at this and move 
toward not only ethanol, butanol, renewable diesel and others 
of these renewable fuels without having these negative 
environmental impacts.
    Mrs. Blackburn. Thank you. I yield back.
    The Chairman. The gentlelady's time has expired. The 
gentleman from New York, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman.
    And thank you all on our illustrious panel. I am sorry I 
missed so much of your spoken testimony, but I did read it last 
night, and it is very informative.
    Just quickly, I want to just comment on the remarks that 
were made by Mr. Woolsey and Admiral McGinn, among others, 
about the challenges of using nuclear power. I have in my 
district a plant which is currently leaking strontium and 
tritium into the groundwater and into the Hudson River, which 
has shut down accidentally twice in the last week, one time 
because of a fire and an explosion in a transformer that was 
not reported to the local authorities for 40 minutes, and which 
was also noted by Mohammed Atta on documents that were found 
after 9/11 as one of the targets that he had speculated about 
flying a plane into.
    Against that backdrop and knowing with the 103 nuclear 
sites currently, commercial nuclear sites operating in this 
country where we have vast quantities of high-level waste being 
stored de facto, where citizens never originally intended to be 
a nuclear waste site in their towns, and knowing that every 
city and State in between there and Yucca Mountain has 
threatened legal action to try to stop transit by rail or 
highway to get there, if we increase the transit of either 
spent fuel or enriched fuel to and from hundreds or thousands 
of new nuclear plants around the world, not just in this 
country but around the world, in reference to that safety 
regime, that security regime that I believe the admiral 
referred to, aren't we virtually guaranteeing that sooner or 
later there will be a diversion and at least a dirty bomb as a 
result?
    Admiral McGinn. It is possible. However, I think that 
nuclear--the generation nuclear plant in your district is very 
much an older one. The experience of the Navy with naval 
reactors has been very, very positive. The evolution of nuclear 
science and nuclear power plant design has proceeded at a much 
lower level than it was back in the 1960s and 1970s, but 
progressed nevertheless.
    So I believe that from an operational safety standpoint, we 
can put out nuclear power plants that are at least 10 times 
safer, perhaps even 100 times safer than the current 
generation.
    That said, there are the security concerns about 
transporter fuel, conversion of fuel, the waste disposal of 
fuel, and attendant to all of those security concerns and the 
design and construction concerns is what does it cost. What is 
the ultimate cost for a kilowatt hour of nuclear power compared 
to other forms? The key point, though, is--and one of the 
reasons I am not ready to reject nuclear power at all--is that 
right now 20 percent of our electricity is from nuclear power 
plants, 2 percent is from renewable fuels. To try to displace 
that is a very, very daunting challenge.
    Mr. Hall. I understand, General.
    Admiral McGinn. We need to have a fair hearing.
    Mr. Hall. Excuse me. I have limited time. I appreciate your 
comments and I am just throwing some ideas out here. We haven't 
talked about low-head hydroelectric at all. The Idaho National 
Laboratory, part of our own Energy Department, says that in my 
State of New York alone there are 4,000-plus low-head hydro 
sites, dams and waterfalls where, every day, tons of water are 
going over, being wasted. And that by putting turbines where 
the water is falling and wiring them into the grid, we could 
harvest greater than 1,200 megawatts of power, which happens to 
be 60 percent of the Indian Point Nuclear Point's peak output.
    So I am just curious about your comments about low-head 
hydro tidal power, wavepower or hydrogen as a storage mechanism 
for off-peak time when the capacity needs to be stored 
somewhere.
    Mr. Woolsey. Congressman, I think the most promising sets 
of developments are the lowering costs going to first thin film 
and then nanosolar and the lowering costs from distributed--
that is, small-scale wind generators which can operate at, say, 
three or four miles an hour instead of the eight or nine miles 
an hour that you need for the large turbines, which is why they 
are up in mountain passes and out in the ocean. I know of only 
one tidal system. It is functioning on a commercial basis in 
France. It seems to work reasonably well, but I think the tidal 
situation has to be pretty much ideal. And some of the ocean 
current ideas are really very intriguing and there is some good 
research going on on them.
    Hydrogen is not a bad way to store energy if you can't do 
anything else, and it does have--let's say you generate from a 
wind farm in the Great Plains and you can't get the electricity 
out because there aren't transmission lines, turning that into 
hydrogen for, let's say, the chemical industry or something 
like that might have real utility. Trying to use that hydrogen 
to power family automobiles, as I said earlier, I think is one 
of the craziest ideas this country has ever gotten off onto.
    The Chairman. The gentleman's time has expired. The 
gentlelady from California, Ms. Solis.
    Ms. Solis. Thank you, Mr. Chairman. And I appreciate the 
testimony that we heard from all of you, from the witnesses 
this morning. And I am intrigued about the discussion regarding 
reliability with renewable energy. And in particular, in the 
State I represent, California, I just learned of a project that 
is underway right now that is looking at wind power being 
provided up in the Tehachapi. And maybe, Mr. Pope, you know 
something about this. But what is occurring is that they are 
going to be working with the PUC and Southern Cal Edison and 
some other folks, and it is actually going back to similar 
lines that have been put in place since the 1920s, so they are 
not actually going outside of what has already been established 
during the past few decades.
    And the reliability there that they are proposing is that 
they are going to be able to provide about 60 percent more of 
our electricity once this project is completed. And it is based 
primarily on wind energy and reliability. And for us in 
California, I think it means a great deal because we have had 
such tremendous problems in the past with shortages, brownouts, 
blackouts, and the whole problems with the grid, and then 
trying to find reliability. And our population continues to 
grow.
    So, Carl Pope, I would ask you if you know anything about 
that or if you want to comment.
    Mr. Pope. Well, one of the interesting things is that if 
you diversify, as California has worked on doing, your 
electricity sources, you are actually building yourself in a 
lot of security against disruptions. So these new retrofitted 
wind systems are very important.
    An opportunity we are not taking advantage of, we have a 
great deal of natural gas capacity in California that needs to 
be repowered. It is wasting half of the gas which it burns 
every day, and at today's gas prices that doesn't make sense.
    Another opportunity we have in California that deals with 
some of the storage issues with renewable is if we can make 
central station solar thermal cost competitive, it is 
relatively easy to store the heat. It is easier to store heat 
than it is to store electricity. So even though the sun doesn't 
shine at night, a central station thermal solar electric 
plant--and we have a lot of sunshine and a lot of desert in 
California where we could do this--those plants can generate 
electricity at night. So we have a lot of opportunities if we 
consciously diversify.
    Ms. Solis. My next question really is for any of the 
panelists. We talk about security, energy security in other 
countries, particularly underdeveloped countries. What can we 
do as a Nation to help provide for leadership, and perhaps that 
partnership that you touch on here, and I am thinking 
particularly in places like the Middle East.
    I recently visited Iraq and saw a project that is underway 
there, a wastewater, waste management system that is being put 
in place right now. And I think, wow, what a great overture to 
folks there to let them know that we are sharing our 
technology. And I just want to get some comments from you on 
that. General Sullivan?
    General Sullivan. I think Nunn-Lugar, I think there are 
some efforts going on, in fact I know there are with the former 
Soviet Union, to get some control of their spent nuclear fuel 
and weapons. I think that is productive, reasonably productive. 
That is in the security arena. Other than that, I am not 
qualified.
    Mr. Haass. I would say, funnily enough, for the oil 
producing countries, many of them, they need help dealing with 
their windfall. There has been a lot of writing about the oil 
curse, and for a lot of these countries, it overwhelms their 
capacity to have the normal evolution of a country, to develop 
normal markets, the rule of law, democracy.
    Demanding that countries such as Nigeria and others put in 
place real accounting, transparency, essentially not allowing 
the oil windfall to become a major source of corruption which 
actually undermines their governance is something that not 
simply the U.S. Government but oil companies and NGOs can help 
with. That is a way that we can essentially help the so-called 
wealthy countries deal with their own energy security 
situation.
    Mr. Woolsey. There is a historical identification in a 
number of these countries in the developing world with local 
self-sufficiency. That is what that spinning wheel is doing in 
the middle of the Indian flag. It was Gandhi's way of saying 
the villages ought to spin their own cotton and be self-
sufficient.
    And when you look at what is potentially available, I 
think, from solar wind and biomass for villages in India or, 
for that matter, settlements in the Iraqi desert, to be able to 
produce enough energy locally to, say, pump water or clean 
water up, and with battery developments to have some kind of 
capability to use even in areas of the world that don't have 
oil or ready access to it, to use electricity for powering 
vehicles, for plows and the like. These developments are 
coming, and they are coming in part because battery technology 
has moved so quickly.
    And finally, Congresswoman, in California one thing to 
remember is although you all had some very serious problems out 
there with respect to your electricity, California as a whole 
over the last 20 years has held its efficiency with respect to 
electricity such that the average Californian pays about the 
same amount as I do in Maryland for his electricity, but he 
pays at rates that are about double because he is using about 
half as much. And California has been the leader in the country 
with its PUC and the rest, and steering us in a direction the 
rest of the country ought to follow with respect to that.
    Ms. Solis. Thank you.
    The Chairman.  The gentlelady's time has expired. Can I ask 
you--I am going to ask each one of you in reverse order to give 
us a one-minute summation of what it is you want us to remain 
the big point as we are moving forward on the select committee.
    And I would like while we are thinking about that, just 
General Sullivan, could you just talk about Diego Garcia 
briefly? It is in your report, and what is happening to that 
atoll out in the Indian Ocean?
    General Sullivan. You want me to do it right now?
    The Chairman.  Yes. Could you do that?
    General Sullivan. Diego Garcia, as you know, is an atoll in 
the Indian Ocean. It is a strategic base that the United States 
has used for a number of years. Because it is an atoll, it is 
almost at sea level. Any rise in the sea level could obviously 
cause dislocation and dislocation would, in fact, require 
alternative basing somewhere.
    The Chairman.  It has a security implication for the United 
States?
    General Sullivan. Yes. Yes it does. Prepositioned ships are 
kept there and other equipment.
    The Chairman.  And your conclusion is that it is at risk 
now?
    General Sullivan. Well, my conclusion is if the oceans were 
in fact to rise, if what people are suggesting, if they were 
to--if oceans were to rise even inches, it would have an effect 
on Diego Garcia.
    The Chairman.  Okay. Thank you. So let's begin the 
summations with you, Mr. Woolsey.
    Mr. Woolsey. Thank you, Mr. Chairman. I think with respect 
to policy and Congress' role of legislation, two things are 
important. One is the CAFE standards, as you have proposed, in 
order to keep progress steady with respect to reducing oil use. 
And the other is removing barriers so that alternative fuels 
can be used--flexible fuel vehicles, pumps and any regulatory 
barriers that might be in the way of plug-in hybrids, and 
particularly the vehicle to grid that is plugging the hybrid 
back in after it is fully charged so it can supply some of the 
power to the grid. There is so much energy in vehicles that 
this really creates remarkable financial and other 
opportunities.
    The Chairman. Okay. Thank you, Mr. Woolsey.
    Admiral McGinn.
    Admiral McGinn. Mr. Chairman, thank you. This is an 
American challenge. It is one that Americans together will 
meet. It doesn't have partisan labels on it. The solutions are 
available today. They need to be guided by leadership and good 
policy which enables us to advance our energy efficiency and to 
increase our choices of clean renewable fuels in order to 
create opportunity for our economy, create opportunity and 
raise our level of national security and also to be a leader in 
the global sense in meeting this energy challenge. Thank you.
    The Chairman. Thank you, Rear Admiral. Mr. Pope.
    Mr. Pope. In order to solve this problem, the twin problems 
of oil addiction and global warming, all we need to do is 
reduce our emissions of carbon dioxide by 2 percent a year and 
improve the reliance of our transportation fleet on oil at a 
rate of 4 percent a year. Those are rates of innovation lower 
than we accept in any other part of the American economy, lower 
than those we experience in any other part of the American 
economy.
    So the big question this committee has to answer is, why 
aren't we doing it already? And I am going to offer an answer 
which may not be welcome. I believe that the largest single 
barrier to innovation and progress, to kicking our oil 
addiction and stopping global warming, is that the United 
States Congress has structured the American energy sector in 
such a way that those who benefit from innovation are 
frustrated by those who benefit from stagnation. I think you 
need to fix the way in which Congress thinks about energy.
    The Chairman. Thank you, Mr. Pope. Dr. Haass.
    Mr. Haass. Thank you, Mr. Chairman. The short answer to 
your question is to continue doing what you are doing today. 
The more these issues gain salience and the more people see 
energy security and climate change as integrated in parts of a 
larger whole, I think you are beginning to win the debate. And 
encouraging that policymaking and the organization of 
policymaking come to reflect that will also help.
    Three specific points. One is coal. Real estate is about 
location, location, location. An awful lot of this issue of 
climate change is about coal, coal, and coal. And to the extent 
we can create an environment in which clean coal production, as 
well as thinking through and ultimately realizing technologies 
for storage of the carbon that is produced from coal plants 
happens, that will go a long way towards the problem.
    Secondly, to focus on the transportation sector and the 
sort of legislation you are introducing is good because it 
provides the predictability that Detroit and others need to 
know and innovators need to know so they can essentially--they 
are therefore aware what world they are operating in.
    Lastly, we can't do it on our own. There will be no 
solution to the climate change problem without full 
participation by India and China above all.
    Which brings me back to the importance of coming up with 
guidelines for a post-Kyoto, post-2012 world. Let's put aside 
the debate over Kyoto; love it, hate it. We need to get serious 
about what will be the principles that will inform U.S. policy 
and begin the conversation earlier rather than later with 
China, India, with Japan, with Europe, with Brazil, because the 
4 or 5 years between now and 2012 will barely be enough to have 
that debate settled.
    The Chairman. Thank you, Doctor. General Sullivan.
    General Sullivan. Mr. Chairman, I believe that climate 
change, environmental health, energy dependence and national 
security are all interrelated. I think you are on the right 
track with this panel, addressing these issues. I applaud your 
endeavors to sponsor an NIE, National Intelligence Estimate, to 
look at these issues in depth, broadly, and to come up with a 
way forward.
    The Chairman. Well, we thank you. We thank this 
extraordinary panel for its testimony today, not just for your 
testimony but also for the judgment which you have brought to 
these issues here today.
    I think that two things are quite clear. One, it is the 
size of the problem, and it is no longer acceptable for us to 
act incrementally. We now must find a way for the United States 
Congress and for the United States to be bold to deal with this 
issue. The time has now passed for incremental solutions, and 
while boldness has always been something that is synonymous 
with unpassable in terms of legislation in Washington, I think 
that quickly that time is passing on this issue. And secondly, 
that the solutions are there, and our panel has pointed to so 
many of them from fuel economy standards for vehicles to 
cellulosic energies, renewable sources for the generation of 
electricity, looking at the sequestration of carbon in the use 
of coal and so many others, the gentleman from Oregon pointing 
to the standards that we should have for buildings across our 
country. The list goes on and on but the solutions are 
available.
    This is the kickoff to the 2-year Select Committee on 
Energy Independence and Global Warming. I can't think of a 
greater panel to have begun this discussion. We thank you very 
much. This hearing is adjourned.
    [Whereupon, at 12:30 p.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T7964A.004
    
    [GRAPHIC] [TIFF OMITTED] T7964A.005
    
    [GRAPHIC] [TIFF OMITTED] T7964A.006
    
    [GRAPHIC] [TIFF OMITTED] T7964A.007
    
    [GRAPHIC] [TIFF OMITTED] T7964A.008
    
    [GRAPHIC] [TIFF OMITTED] T7964A.009
    
    [GRAPHIC] [TIFF OMITTED] T7964A.010
    
    [GRAPHIC] [TIFF OMITTED] T7964A.011
    
    [GRAPHIC] [TIFF OMITTED] T7964A.012
    
    [GRAPHIC] [TIFF OMITTED] T7964A.013
    
    [GRAPHIC] [TIFF OMITTED] T7964A.014
    
    [GRAPHIC] [TIFF OMITTED] T7964A.015
    
    [GRAPHIC] [TIFF OMITTED] T7964A.016
    
    [GRAPHIC] [TIFF OMITTED] T7964A.017
    
    [GRAPHIC] [TIFF OMITTED] T7964A.018
    
    [GRAPHIC] [TIFF OMITTED] T7964A.019
    
    [GRAPHIC] [TIFF OMITTED] T7964A.020
    
    [GRAPHIC] [TIFF OMITTED] T7964A.021
    
    [GRAPHIC] [TIFF OMITTED] T7964A.022
    
    [GRAPHIC] [TIFF OMITTED] T7964A.023
    
    [GRAPHIC] [TIFF OMITTED] T7964A.024
    
    [GRAPHIC] [TIFF OMITTED] T7964A.025
    
    [GRAPHIC] [TIFF OMITTED] T7964A.026
    
    [GRAPHIC] [TIFF OMITTED] T7964A.027
    
    [GRAPHIC] [TIFF OMITTED] T7964A.028
    
    [GRAPHIC] [TIFF OMITTED] T7964A.088
    
    [GRAPHIC] [TIFF OMITTED] T7964A.089
    
    [GRAPHIC] [TIFF OMITTED] T7964A.090
    
    [GRAPHIC] [TIFF OMITTED] T7964A.091
    
    [GRAPHIC] [TIFF OMITTED] T7964A.092
    
    [GRAPHIC] [TIFF OMITTED] T7964A.093
    
    [GRAPHIC] [TIFF OMITTED] T7964A.094
    
    [GRAPHIC] [TIFF OMITTED] T7964A.095
    
    [GRAPHIC] [TIFF OMITTED] T7964A.096
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
